                           OFFICE OF
                    THE INSPECTOR GENERAL


                        U.S. NUCLEAR
                   REGULATORY COMMISSION


                     Independent Auditors' Report and
                        Principal Statements for the
                 Years Ended September 30, 2001 and 2000

                     OIG-02-A-08     February 11, 2002




                      AUDIT REPORT

                                          REt4I,,%
                          0
                         4'
                        It-




All publicly available OIG reports (including this report) are accessible through
                                NRC's website at:
                      http://www.nrc.gov/NRC/OIG/index.html
            "0                        UNITED STATES
                            NUCLEAR REGULATORY COMMISSION
               9                       WASHINGTON, D.C. 20555-0001




                                                    February 11, 2002
OFFICE OF
       I  THE
INSPECT'OR GENERAL



      MEMORANDUM TO:                Chairman Meserve



       FROM:                        Hubert T. Bell
                                    Inspector General


       SUBJECT:                      RESULTS OF THE AUDIT OF THE U.S. NUCLEAR
                                     REGULATORY COMMISSION'S FISCAL YEAR 2001 FINANCIAL
                                     STATEMENTS (OIG-02-A-08)


       Attached is the independent auditors' report on the U.S. Nuclear Regulatory Commission's
       (NRC) financial statements for the years ended September 30, 2001 and 2000. The Chief
       Financial Officers Act requires the Office of the Inspector General (OIG) to annually audit
       NRC's Principal Financial Statements. The report contains: (1) the principal statements and
       the auditors' opinion on those statements; (2) the opinion on management's assertion about the
       effectiveness of internal controls; and (3) a report on NRC's compliance with laws and
       regulations. Written comments were obtained from the Chief Financial Officer (CFO) and are
       included as an appendix to the report.

       Audit Results

       The independent auditors issued an unqualified opinion on the balance sheet and the
       statements of changes in net position, net cost, budgetary resources, and financing.

       In the report on management's assertion about the effectiveness of internal controls, the
       auditors concluded that management's assertion is not fairly stated. The auditors reached this
       conclusion because management did not identify the lack of managerial cost   accounting and
                                                                                1
       inadequate accounting for internal use software as material weaknesses.

       The auditors identified two new reportable conditions and closed four prior-year reportable
       conditions. The new conditions concern accounting for internal use software and contract
       close-out procedures.




                       OIG's annual assessment of NRC's implementation of the Federal Manager's Financial
                       Integrity Act will also report the same issues as material weaknesses.
Chairman Meserve                                -2-


The report on NRC's compliance with laws and regulations disclosed three noncompliances.
The first is that NRC did not comply with Executive Order 13103, ComputerSoftware Piracy.
The second is that NRC's 10 CFR Part 170 license fee rates are not based on full cost, and the
third is that is NRC is in substantial non-compliance with the Federal Financial Management
Improvement Act of 1996 (FFMIA). The specific issues related to FFMIA are that managerial
cost accounting was not implemented, as required, and that the agency did not adequately
account for internal use software.

The prior year's reportable condition relating to the Debt Collection Improvement Act is closed.
The condition relating to business continuity plans for the general ledger system remains in
substantial noncompliance with FFMIA. However, NRC was dependent on the Department of
the Treasury to resolve this condition. During FY 2002, NRC plans to transfer its accounting
system to a new provider. Tests of compliance with selected provisions of other laws and
regulations disclosed no other instances of noncompliance.

PerformanceReporting

Office of Management and Budget Bulletin No. 01-02, Audit Requirements for FederalFinancial
Statements, requires OIG to "obtain an understanding of the components of internal control
relating to the existence and completeness assertions relevant to the performance measures
included in the MD&A [Management's Discussion and Analysis]." The Bulletin states that the
objective of this work is to report deficiencies in the design of internal control, rather than plan
the financial statement audit. On February 23, 2001, OIG issued a separate report on the
validity and reliability of NRC's performance information.2 The report noted that many efforts to
improve internal controls and the reliability (e.g. completeness, timeliness) of performance data
were underway during FY 2001. These efforts should improve the validity and reliability of
NRC's data. During FY 2002, OIG will evaluate the effect of these improvements on specific
performance data reported by NRC.

Comments of the Chief FinancialOfficer

The CFO generally agreed with the auditors' recommendations and stated that corrective action
has been taken or is underway. We will follow-up on the CFO's corrective action during FY
2002.

We appreciate NRC staff's cooperation and continued interest in improving financial
management within NRC.

Attachment: As stated

cc:    Commissioner    Dicus
       Commissioner    Diaz
       Commissioner    McGaffigan
       Commissioner    Merrifield


       2      OIG Report OIG-01 -A-03, Government Performance and Results Act: Review of the
              Fiscal Year 1999 Performance Report, February 23, 2001.
cc:   R. McOsker, OCM/RAM
      B. Torres, ACMUI
      G. Hornberger, ACNW
      G. Apostolakis, ACRS
      J. Larkins, ACRS/ACNW
      P. Bollwerk III, ASLBP
      K. Cyr, OGC
      J. Cordes, Acting OCAA
      W. Travers, EDO
      S. Reiter, Acting CIO
      J. Funches, CFO
      P. Rabideau, Deputy CFO
      J. Dunn Lee, OIP
      D. Rathbun, OCA
      W. Beecher, OPA
      A. Vietti-Cook, SECY
      W. Kane, DEDR/OEDO
       C. Paperiello, DEDMRS/OEDO
       P. Norry, DEDM/OEDO
       J. Craig, AO/OEDO
       M. Springer, ADM
       R. Borchardt, OE
       G. Caputo, 01
       P. Bird, HR
       I. Little, SBCR
       M. Virgilio, NMSS
       S. Collins, NRR
       A. Thadani, RES
       P. Lohaus, OSP
       F. Congel, IRO
       M. Federline, NMSS
        R. Zimmerman, RES
       J. Johnson, NRR
        H. Miller, RI
        L. Reyes, RII
        J. Dyer, Rill
        E. Merschoff, RIV
        OPA-RI
        OPA-RII
        OPA-RIII
        OPA-RIV
U.S. NUCLEAR REGULATORY COMMISSION




INDEPENDENT AUDITORS' REPORT AND PRINCIPAL STATEMENTS
FOR THE YEARS ENDED SEPTEMBER 30, 2001 AND 2000
                                              TABLE OF CONTENTS



M anagement's Discussion and Analysis ..................................................         I

Independent Auditors' Report on the Principal Statements ...................................    19

Financial Statements, Accompanying Notes and
        Required Supplementary Information .............................................        22

Independent Accountants' Report on Management's Assertion About
       the Effectiveness of Internal Control and Independent Auditors'
       Report on Compliance with Laws and Regulations ..................................        40

Chief Financial Officers' Response to the Auditors' Report ..................................   51
               MANAGEMENT'S DISCUSSION AND ANALYSIS


Management's Discussion and Analysis is a high-level overview of the Nuclear Regulatory Commission
(NRC). It consists of five sections: About the NRC, describes the agency's mission and organizational
structure; ProgramPerformance, discusses the agency's success in achieving its strategic goals;
FinancialPerformance,provides highlights of the financial statements and NRC's financial position;
FinancialCondition of the NRC, provides an overview of sources and uses of funds, prompt payment,
and debt collection; and Systems, Controls,and Legal Compliance, describes the agency's internal
control environment and contains the Chairman's statement regarding the agency's compliance with the
Federal Managers' Financial Integrity Act of 1982, and the results of the Chairman's determination
regarding the agency's compliance with the Federal Financial Management Improvement Act of 1996.

ABOUT THE NRC
The NRC was established by the U.S. Congress on                                MISSION
January 19, 1975, as an independent Federal
Government agency to regulate various commercial and           The NRC's mission is to regulate the
institutional uses of nuclear energy. The agency has           Nation's civilian use of byproduct,
assumed the Atomic Energy Commission's regulatory
function to develop and regulate nuclear activities. The       source, and special nuclear materials to
NRC's purpose is defined by the Atomic Energy Act of           hnsure adequate protection of public
1954, as amended, and the Energy Reorganization Act            health       and sato    rote th
of 1974, as amended. These Acts provide the foundation           c       defensen        t,
for regulating the nation's civilian use of nuclear            protect the environment.
materials.

To fulfill the NRC's responsibility to protect the public health and safety, the agency performs three
principal regulatory functions: (1) establish standards and regulations, (2) issue licenses for nuclear
facilities and users of nuclear materials, and (3) inspect facilities and other uses of nuclear materials to
ensure compliance with regulatory requirements. These regulatory functions relate to both nuclear power
plants and other uses of nuclear materials, such as nuclear medicine, academic activities, research work,
and industrial applications.

Organization

The top leadership of the NRC consists of a five member Commission. The President nominates
members to serve 5 year terms with the consent of the U.S. Senate and designates one member as
Chairman. The Chairman serves as the principal executive officer and official spokesman for the
Commission. The chief operating officer is the Executive Director for Operations who carries out the
program policies and decisions made by the Commission.

Approximately 2,800 staff members carried out the agency's mission for FYs 2001 and 2000 utilizing a
budget of approximately $490 million for FY 2001 and $470 million for FY 2000. The NRC recovered
the majority of its budget from license fees.



                                                      1
                            MANAGEMENT'S DISCUSSION AND ANALYSIS


 The NRC's headquarters is located in Rockville, Maryland. Four regional offices are located in King of
 Prussia, Pennsylvania; Atlanta, Georgia; Lisle, Illinois; and Arlington, Texas; and a technical training
 center in Chattanooga, Tennessee. The NRC also has resident inspector offices at each commercial
 nuclear power plant. An organization chart for the NRC is located at the end of this section.

PROGRAM PERFORMANCE GOALS AND RESULTS

The Government Performance and Results Act (GPRA) requires Federal agencies to provide an annual
performance plan to Congress, setting goals with measurable target levels of performance.

                 STRATEGIC GOALS                            The NRC evaluates its program performance by
                                                            using a structured strategic planning process. As
  "* Prevent radiation-related deaths and illnesses,        such, NRC has organized its strategic goals,
     promote the common defense and security, and           performance goals, and strategies for achieving
     protect the environment in the use of civilian         its mission into four strategic arenas. Our
     nuclear reactors.                                      highest priority is safety, and our strategic goals
                                                            focus on the achievement of this priority.
  "* Prevent radiation-related deaths and illnesses,       Th
     promote the common defense and security, and               e goal of the first arena, Nuclear Reactor
     protect the environment in the use of source,         Safety, is to ensure that civilian nuclear power
     byproduct, and special nuclear material,              reactors, as well as non-power reactors, are
                                                           operated in a manner that adequately protects
  "* Prevent significant adverse impacts from              public health and safety and the environment.
     radioactive waste to the current and future           The NRC regulates 103 operating civilian
     public health and safety and the environment,         nuclear power reactors and 37 non-power
     and promote the common defense and security.          reactors. During FYs 2001 and 2000, the NRC
                                                           met all five of the strategic goal measures for this
  "* Support U.S. interests in the safe and secure         arena.
     use of nuclear materials and in nuclear non
     proliferation.                                       For the past year, the NRC met or exceeded all
                                                          established schedules for license renewal
                                                          activities. This is significant given the interest by
                                                          our licensees whose licenses need to be renewed
to continue operations. To date, the NRC has approved 62 requests from licensees to increase the
electrical generating capacity of their nuclear reactor power plants (power uprates). Approval of uprates
has resulted in an electrical generating capacity gain equivalent to approximately two large nuclear power
plants.

The goal of the second strategic arena, Nuclear Materials Safety, is to ensure that NRC-regulated
activities associated with the use of source, byproduct, and special nuclear materials are conducted in a
manner that protects the public health and safety, the environment, and promotes the common defense
and security. This arena includes regulatory oversight for 24 fuel facilities, including eight major fuel
cycle facilities and two gaseous diffusion plants. It also includes oversight of more than 20,000 specific
licenses regulated by the NRC and the Agreement States. During FYs 2001 and 2000, the NRC met all
five of its strategic goal measures for this arena.


                                                       2
                         MANAGEMENT'S DISCUSSION AND ANALYSIS


In addition to achieving our strategic goal measures, it is noteworthy to describe the NRC's progress in
reviewing an application to construct a mixed oxide fuel fabrication facility at the Department of
Energy's Savannah River site near Aiken, South Carolina. The proposed use of mixed oxide fuel is part
of the national non-proliferation effort to dispose of surplus weapons grade plutonium by utilizing it in
existing commercial light water reactors. The NRC performed an acceptance review of the application
and announced an opportunity for a hearing. Also, three public meetings were conducted at various
locations near the proposed site to obtain public opinion on the scope of the proposed environmental
impact statement for the license application review.

The goal of the third strategic arena, Nuclear Waste Safety, is to prevent adverse impacts from
radioactive waste to current and future public health and safety, the environment, and to promote the
common defense and security. The Nuclear Waste Safety arena encompasses regulatory activities
associated with the decommissioning of nuclear reactors and other facilities, storage of spent nuclear fuel,
transportation of radioactive materials, and disposal of radioactive waste. For FYs 2001 and 2000, the
NRC met all four of its strategic goal measures for this arena.

One of the NRC's major accomplishments in the high-level waste program in FY 2001 was the approval
of the final regulations for 10 Code of Federal Regulations (CFR) Part 63, providing site-specific criteria
for use in a possible licensing decision on a potential waste repository at Yucca Mountain, Nevada. The
NRC also reviewed the U.S. Department of Energy's (DOE) Supplemental Draft Environmental Impact
Statement for the Yucca Mountain repository. The agency continued technical exchanges with DOE on
key licensing issues pertaining to the potential high-level waste repository and also to resolve DOE sub
issues and NRC concerns.

Also during FY 2001, the NRC completed the review of the Trojan Nuclear Plant License Termination
Plan. This was a multi-year effort resulting in the first NRC approval of a License Termination Plan
submitted in accordance with the NRC's reactor regulation. The NRC also completed its evaluation of
previously terminated licenses to determine if the facilities had been adequately decontaminated prior to
license termination.

The goal of the fourth strategic arena, International Nuclear Safety Support, is to support U.S. interests
abroad in the safe and secure use of nuclear materials and in nuclear non-proliferation. This arena
encompasses international nuclear policy formulation, export-import licensing for nuclear materials and
equipment, treaty implementation, nuclear proliferation deterrence, international safety assistance, and
safeguards support and assistance. All three measures established for this arena were met in FYs 2001
and 2000.

During FY 2001, the NRC completed action on a proposed export of highly enriched uranium to Canada
for use as target material for medical isotope production. The agency also played a key role in defining
criteria for international agreements on exclusion, clearance, and exemption of contaminated and
radioactive materials, and for release of commodities for unrestricted use.

The NRC also conducted bilateral assistance activities for nuclear safety and safeguards with Russia,
Ukraine, Armenia, Kazakhstan, and countries of Central and Eastern Europe in close coordination with
the Departments of State and Energy. Of particular note, the NRC participated in the safe shutdown and


                                                    3
                           MANAGEMENT'S DISCUSSION AND ANALYSIS


decommissioning of the BN-350 sodium-cooled fast breeder reactor near Aktau, Kazakhstan; the closure
of the Chernobyl nuclear power plant in Ukraine; and proposals to limit Russia's long-term production of
weapons-grade plutonium. The NRC negotiated with appropriate foreign counterparts four bilateral
exchange agreements in FY 2001 to ensure an effective framework for the NRC's international
exchanges is in place.

FINANCIAL PERFORMANCE
As of September 30, 2001, and 2000, the financial condition of the NRC was sound with sufficient funds
to meet program needs and adequate control of these funds in place to ensure NRC obligations do not
exceed budget authority. The NRC prepared its financial statements in accordance with the accounting
standards codified in the Statements of Federal Financial Accounting Standards (SFFAS) and Office of
Management and Budget (OMB) Bulletin No. 97-01, Form and Content ofAgency FinancialStatements,
as amended by OMB Bulletin No. 0 1-09.

Audit Results

The NRC received an unqualified audit opinion on its FY 2001 financial statements. This was the eighth
consecutive year the NRC received an unqualified opinion. For FY 2001, the auditors identified two
material internal control weaknesses: incomplete implementation of SFFAS Number 10 (SFFAS 10),
Accountingfor Internal Use Software, and, SFFAS Number 4 (SFFAS 4), ManagerialCost Accounting
Concepts andStandardsfor the FederalGovernment. These two weaknesses were also identified as
being non-compliant with the Federal Financial Management Improvement Act (FFMIA) of 1996. In
FY 2000, the auditors also identified management controls over license fee development as a material
weakness. Because improved quality control procedures over fee development were instituted during FY
2001, the auditors closed the finding.

The auditors also identified two new reportable conditions for FY 2001 concerning contract close-out
processing procedures and compliance with computer software accountability. In addition, nine
reportable conditions were carried over from FY 2000. Four of these nine reportable conditions remained
open at the end of FY 2001. These four include the incomplete implementation of managerial cost
accounting, lack of a tested business continuity plan for the core accounting system, inadequate controls
over the verification of small entity status for fee assessment, and development of the hourly rate for fees.
The lack of a tested business continuity plan for the core accounting system was also identified as being
non-compliant with FFMIA. The agency has taken action on these audit findings and expects to fully
implement corrective action during FY 2002.

Financial Statement Highlights

The NRC's financial statements summarize the financial activity and financial position of the agency.
The financial statements, footnotes, and the balance of the required supplementary information, appear in
a subsequent section of this report. Analysis of the principal statements follows:




                                                     4
                          MANAGEMENT'S DISCUSSION AND ANALYSIS


Analysis of the Balance Sheet

The NRC's assets were approximately $236.9 million as of September 30, 2001. This is an increase of
$11 million from the end of FY 2000, and is mainly due to an increase in Accounts Receivable resulting
from mail delays and the late receipt of payments from licensees due to the September 11, 2001, terrorist
attack on America. The assets reported in NRC's Balance Sheet are summarized in the accompanying
table.

The Fund Balance with Treasury represents
                                                                   ASSET SUMMARY (in millions)
the NRC's largest asset of $140.5 million as
of September 30, 2001, an increase of $1.8                                           FY 2001      FY 2000
million from the FY 2000 yearend balance.
                                                     Fund Balance with Treasury         $140.5      $138.7
This balance accounts for approximately 60
percent of total assets and represents              Accounts Receivable, Net              51.4        44.0
appropriated funds, collection of license fees,      Property, Plant, & Equipment,        43.8        41.9
and other funds maintained at the U.S.               Net
Treasury to pay current liabilities.                 Other                                  1.2        1.3

Accounts Receivable, Net, as of September                  Total Assets          $236.9 JL $225.9]]
30, 2001 was $51.4 million and includes an
offsetting allowance for doubtful accounts of
$3.1 million. This is a 17 percent increase
over the FY 2000 yearend Accounts Receivable, Net, balance of $44.0 million. Accounts Receivable
Due from the Public is $48.9 million, representing 21 percent of total assets.

 The value of Property, Plant, and Equipment, Net, was $43.8 million, representing 18 percent of total
 assets. The majority of the balance is comprised of nuclear reactor simulators, leasehold improvements,
 and computer hardware and software. The Property, Plant, and Equipment line item reflects the adoption
 of capitalizing the full costs of developing internal use software, as required by SSFAS 10, Accounting
for Internal Use Software, implemented on October 1, 2000.

The NRC's liabilities were $143.4 million as
of September 30, 2001. The accompanying                        LIABILITIES SUMMARY (in millions)
table shows an increase in total liabilities of                                  FY 2001         FY 2000
$13.6 million from the FY 2000 yearend
balance of $129.8 million. This is mainly due      Accounts Payable                   $ 28.6        $26.5
to an increase of $7.4 million in the liability to Federal Employee Benefits            10.9           8.2
the U.S. Treasury for assessed license fees,
which, when collected, are used to offset          Other Liabilities                   103.9          95.1
NRC's appropriations. Of the agency's                      Total Liabilities          $143.4       $129.8
liabilities, $39.3 million were not covered by
budgetary resources, which represents a $3.7
million increase over the balance as of
September 30, 2000. Liabilities not covered by budgetary resources are unfunded pension expenses,
accrued annual leave, and future workers' compensation. The Federal budget process does not recognize


                                                     5
                          MANAGEMENT'S DISCUSSION AND ANALYSIS


the cost of future benefits for today's employees. Instead, the Federal budget process recognizes those
costs in future years when they are actually paid.

The difference between total assets and total
 liabilities, net position, was $93.5 million as                   N_
                                                                    •ET POSITION SUMMARY (in millions)
of September 30, 2001. This is a decrease of
                                                                                           FY 2001       FY 2000
$2.6 million from the FY 2000 yearend
balance. The decrease is mainly the result of         UnexpendecI Appropriations                $86.8          $87.0
a $3.7 million increase in future funding             Cumulative Results of
requirements needed to pay for accrued                Operations                                  6.7             9.1
unfunded expenses. Unexpended                               Total Net Position                  $93.5          $96.1
appropriations is the amount of authority
granted by Congress that has not been
expended. Cumulative results of operations
represent net results of operations since the NRC's   inception.

Analysis of the Statement of Net Cost

The Statement of Net Cost presents the net                         N:ET COST   OF OPERATIONS (in millions)
cost of NRC's four strategic arenas as
identified in the NRC Annual Performance                                                    FY 2001          FY 2000
Plan. The statement allows for linking                Nuclear Reaactor
                                                                       Safety                  $(57.8)         $(60.0)
program performance under GPRA reporting
to the cost of programs. The NRC's net cost           Nuclear Mal erials Safety                  29.4           29.0
of operations for the year ended                      Nuclear Wa ste Safety                      67.4           65.8
September 30, 2001, was $50.6 million, which          Intemationa
                                                                    I Nuclear Safety
is an increase of $2.9 million over the               Support                                    11.6            12.9
FY 2000 net cost of $47.7 million. Net costs
by strategic arena are shown in the                       Net Cos .t of Operations              $50.6          $47.7
accompanying table.

Total exchange revenue for the year ended
September 30, 2001, was $464.0 million, which is an increase of $1 million over the exchange revenue of
$463.0 million for the year ended September 30, 2000. Exchange revenue is derived from license fees
and fees for inspections and other services, assessed in accordance with 10 CFR Parts 170 and 171.

The net cost of operations is expected to increase in the future due to changes in the statutory fee
collection requirements and the addition of non-fee funds appropriated for new homeland security
activities. The requirement to recover approximately 100 percent of the agency's new budget authority
by assessing fees, less amounts appropriated for the Nuclear Waste Fund and the General Fund, was
reduced to 98 percent in FY 2001 and will continue to decrease two percent each year until FY 2005, for
a total reduction of 10 percent.




                                                      6
                         MANAGEMENT'S DISCUSSION AND ANALYSIS


Analysis of Statement of Changes in Net Position

The Statement of Changes in Net Position reports the net results of operations of $2.4 million as the
difference between the NRC's financing sources from other than exchange revenue of $48.2 million and
the net cost of operations of $50.6 million. At the end of FY 2001, appropriations used represented
$31.0 million, or 64 percent, of the total financing sources from other than exchange revenue. This
represents a $4.9 million increase from the FY 2000 yearend appropriations used balance of $26.1
million. The NRC's decrease in Net Position of $2.6 million from FY 2000 to FY 2001 represents the net
results of operations of $2.4 million and the decrease in unexpended appropriations of $0.2 million.

Analysis of the Statement of Budgetary Resources

The Statement of Budgetary Resources shows the sources of budgetary resources available and the status
at the end of the period. It presents the relationship between budget authority and budget outlays, and
reconciles obligations to total outlays. For FY 2001, NRC had budgetary resources available of $532.2
million. The majority of which was derived from budget authority. This represents a three percent
increase over FY 2000 budgetary resources available of $515.9 million.

For FY 2001, the status of budgetary resources showed obligations of $503.3 million, or 95 percent of
funds available. This is comparable to FY 2000 obligations of $485.5 million, or 94 percent of funds
available. Total outlays for FY 2001 were $487.0 million, which represents a $3.1 million increase from
FY 2000 total outlays of $483.9 million.

Analysis of the Statement of Financing

The Statement of Financing is designed to provide the bridge between accrual-based (financial
accounting) information in the Statement of Net Cost and obligation-based (budgetary accounting)
information in the Statement of Budgetary Resources by reporting the differences and reconciling the two
statements. This reconciliation ensures that the proprietary and budgetary accounts in the financial
management system are in balance. The Statement of Financing takes budgetary obligations of $503.3
million and reconciles to the net cost of operations of $50.6 million by deducting non-budgetary
resources, costs not requiring resources, and financing sources yet to be provided.

FINANCIAL CONDITION OF THE NRC

Sources of Funds

The NRC has two appropriations: NRC Salaries and Expenses Appropriation and the Office of the
Inspector General Appropriation. Funds for both appropriations are available until expended. The
NRC's total new FY 2001 budget authority was $487.2 million, $481.7 million for the Salaries and
Expenses Appropriation and $5.5 million for the Office of the Inspector General Appropriation. This
represents an overall increase in new budget authority of $17.3 million over FY 2000, $16.8 million for
the Salaries and Expenses Appropriation, and $0.5 million for the Office of the Inspector General
Appropriation. Additional funds available to obligate in FY 2001 were $32.6 million from prior-year
appropriations, $2.5 million from prior-year reimbursable work, $4.8 million from current and prior-year
transfer of funds from other Federal agencies, and $5.1 million for new reimbursable work to be
                                                    7
                            MANAGEMENT'S DISCUSSION AND ANALYSIS


performed for others. The sum of all funds available to obligate for FY 2001 was $532.2 million, which
is a $16.3 million increase over the FY 2000 amount of $515.9 million.

Consistent with the requirements of the Omnibus Budget Reconciliation Act of 1990, as amended, the
NRC collected and offset approximately 98 percent of its new budget authority in FY 2001 and
approximately 100 percent of its new budget authority in FY 2000, excluding funds derived from the
Nuclear Waste Fund, General Fund, and other offsetting receipts. (See Figure 1.)
                                               Figure 1
                                        SOURCES OF FUNDS

           FY 2001 Budget Authority $487.2M                                   FY 2000 Budget Authority $469.9M

                                        Nuclear
      Reactor                          Waste Fund          Reactor Fees                            Nuclear
       Fees                             $21.6M               $388.6M                              Waste Fund
     $392.7M                             Nuclear                                                   $19.1M
                                        Materials                                                   Nuclear
                                       Fees $59.2M                                                 Materials
                                                                                                  Fees $58.4M
                                     General Fund
                                       $12. 4General                                                   Fund
                          Other                                                                   $3.8M
                         Receipts
                          $1.31M



Uses of Funds by Function

As previously stated, the total budgetary resources available for use by the NRC in FY 2001 was $532.2
million. Of that amount, the NRC incurred obligations of $503.3 million, which was an increase of
$17.8 million over FY 2000. Approximately 58 percent of obligations were used for salaries and
benefits. The remaining 42 percent was used to obtain technical assistance for the NRC's principal
regulatory programs, to conduct confirmatory safety research, to cover operating expenses, (e.g., building
rentals, transportation, printing, security services, supplies, office automation, training), staff travel, and
reimbursable work. (See Figure 2.) The unobligated budget authority available at the end of FY 2001
was $28.9 million which is a slight decrease over the FY 2000 amount of $30.4 million. Of the
$28.9 million in budget authority that was not obligated in FY 2001, $0.6 million of transferred funds
expired at the end of the fiscal year, $4.5 million was for reimbursable work, and $23.8 million in budget
authority is available to fund critical needs in FY 2002.

                                                Figure 2
                                      USES OF FUNDS BY FUNCTION

    FY 2001 Total Obligations $503.3M                                       FY 2000 Total Obligations $485.5M
 Salaries and
   Benefits                                                                                           Travel $11.4M
   $293.4M                                                          Salaries and

                                                                   Benefits $M12
                                                                                                              Conrac
                                                       ContactSupport                                            $182.2M
      Reimbursable
       Work $7.2M                      Support                            Reinursable
                          •$190.7M                                         Work $9.9M




                                                          8
                         MANAGEMENT'S DISCUSSION AND ANALYSIS


Prompt Payment

The Prompt Payment Act requires Federal agencies to make timely payments to vendors for supplies and
services, to pay interest penalties when payments are made after the due date, and to take cash discounts
when they are economically justified. From FY 2000 to FY 2001, the NRC had an increase of 508
invoices (from 8,237 to 8,745) that were paid and subject to the Prompt Payment Act. For FY 2001, the
NRC made 95 percent of its payments on-time that were subject to the Prompt Payment Act. The amount
of interest penalties incurred during FY 2001 were $3,151 which reflects a 51 percent decrease over the
FY 2000 amount of $6,400. In addition, the agency made over 99 percent of its vendor payments
electronically.
                                                    FIGURE 3
                                                 PROMPT PAYMENT



                           10         100.
                                       801




                          0 C5


                                             FY2001 FY2000 FY1999 FY1998
                                                                           FY1997
                                              95%    96%    96%    96%      95%


Debt Collection
The Debt Collection Improvement Act of 1996 was enacted to enhance the ability of the Federal
government to service and collect debts. The agency's goal is to maintain the delinquent debt owed to the
NRC at yearend at less than one percent of its annual billings. The NRC continues to meet its goal and
has kept delinquent debt at less than one percent for the past 5 years. Delinquent debt at the end of
FY 2001 was $2.4 million. This is an increase of $0.9 million over FY 2000; however, it reflects a
decrease in the number of outstanding receivables from 254 to 208. The increase in outstanding
receivables is due to one licensee filing for bankruptcy ($0.5 million) and a delay in the receipt of some
payments because of the disruption to certain financial networks caused by the September 11, 2001,
terrorist attack on America. The NRC continues to aggressively pursue the collection of delinquent debt
and continues to meet the requirement that all eligible delinquent debt over 180 days is referred to the
U.S. Treasury for collection.
                                                     FIGURE 4
                                                 DELINQUENT DEBT




                                 0   "'-     -     -     -

                                     FY2001      FY2000 FY1999   FY1998    FY1997
                                      $2.4M       $1.5M  $2.5M    $2.1M     $2.1


                                                        9
                           MANAGEMENT'S DISCUSSION AND ANALYSIS




                                                                INTEGRITY ACT STATEMENT
                                                                         1:V onnli
SYSTEMS, CONTROLS, AND
LEGAL COMPLIANCE                                           The U.S Nuclear Regulatory Commission
                                                           evaluated its management controls and
The Federal Managers' Financial Integrity Act of           financial management systems for FY 2001
 1982 (Integrity Act) mandates that agencies establish     as required by the Federal Managers'
                                                           Financial Integrity Act of 1982. On the basis
controls that reasonably ensure that: (i) obligations      of the NRC's comprehensive management
and costs comply with applicable law; (ii) assets are      control program, I am pleased to certify, with
safeguarded against waste, loss, unauthorized use, or      reasonable assurance, that the agency is in
misappropriation; and (iii) revenues and                   compliance with the provisions of this act.
expenditures are properly recorded and accounted
for. This act encompasses program, operational, and
administrative areas as well as accounting and            Richard A. Meserve
financial management. The act requires the                Chairman
Chairman to provide an assurance statement on the         U.S. Nuclear Regulatory Commission
adequacy of management controls and conformance           January 16, 2002
of financial systems with Government-wide
standards.

The Federal Financial Management Improvement Act of 1996 (Improvement Act) requires each agency
to implement and maintain systems that comply substantially with: (i) Federal financial management
system requirements, (ii) applicable Federal accounting standards, and (iii) the standard general ledger at
the transaction level. The act requires the Chairman to determine whether the agency's financial
management systems comply with the Improvement Act and to develop remediation plans for systems
that do not comply.

Management Controls

A committee of senior agency executives reviewed individual assurance statements prepared by NRC
office directors and regional administrators that identified weaknesses and warranted the attention of the
executive committee. This committee was comprised of senior executives from Offices of the Chief
Financial Officer and the Executive Director of Operations, with the General Counsel and the Inspector
General as advisors. These statements were based on various sources:

 "*    Management knowledge gained from the daily operation of agency programs and reviews.
 "*    Management reviews.
 "*    Program evaluations.
 "*    Audits of financial statements.
 "*    Reviews of financial systems.
 "*    Annual performance plans.
 "*    Inspector General and General Accounting Office reports.
 "*    Reports and other information provided by the congressional committees ofjurisdiction.

                                                    10
                         MANAGEMENT'S DISCUSSION AND ANALYSIS



The NRC's ongoing management control program requires, among other things, that management control
deficiencies are integrated into offices' and regions' annual operating plans. The operating plan process
has provisions for periodic updates and for attention from senior managers. The management control
information in these plans, combined with the individual assurance statements discussed previously,
provides the framework for monitoring and improving the agency's management controls on an ongoing
basis. It also advises the Chairman of any management control deficiencies serious enough to report as a
material weakness or material non-compliance.

The NRC evaluated its management control systems for the fiscal year ending September 30, 2001. This
evaluation provided reasonable assurance that the agency's management controls achieved their intended
objectives. As a result, management concluded that the NRC did not have any material weaknesses in its
programmatic or administrative activities. However, the NRC's implementation of accounting for
internal use software (SFFAS 10) and managerial cost accounting (SFFAS 4) were identified as
significant weaknesses that merit the attention of senior management.

Governmentwide requirements for accounting for internal use software (SFFAS 10) became effective on
October 1, 2000. The NRC did not have an adequate system to track labor hours, and staff did not
comply with agencywide implementation guidance. In FY 2002, the NRC will implement a new time and
labor reporting system in order to resolve the system weakness. In addition, the NRC will continue to
monitor the reporting of labor time for internal use software development projects to ensure compliance
with established agency procedures and SFFAS 10.

The incomplete implementation of managerial cost accounting was reported as a significant weakness last
year and continues to receive the close attention of senior management. Progress has been made over the
past year to implement managerial cost accounting. During FY 2001, quarterly cost reports were
developed and provided to agency managers as an initial step to implement cost accounting. Cost
accounting software was configured to reflect how the agency plans to report direct costs and allocate its
indirect costs. Consistent with the remediation plan, the agency expects to fully implement managerial
cost accounting and achieve full compliance with SFFAS 4 during FY 2002.

Financial Management Systems

The NRC has five financial systems: the Federal Financial System. (FFS), Capitalized Property System,
License Fee Bill Generator System, Allotment/Financial Plan System, and a Budget Formulation System.
For FYs 2001 and 2000, the NRC also had a mixed system - the Payroll/Personnel System. The NRC
evaluated its financial management systems to determine if they comply with Governmentwide standards,
as required by the Integrity Act (Section 4), and with applicable Federal requirements and accounting
standards required by the Improvement Act. This evaluation disclosed that NRC's major financial
management systems are in compliance with the Integrity Act.

However, the evaluation also disclosed three instances of substantial non-compliance with the
Improvement Act. Reporting for internal use software development represents an instance of substantial
non-compliance because the process did not comply with Federal financial management systems
requirements and with the standard general ledger at the transaction level. The NRC expects to
implement remediation actions required by the Improvement Act during the first quarter of FY 2002.

                                                   11
                           MANAGEMENT'S DISCUSSION AND ANALYSIS


The NRC's financial management systems complied substantially with Federal financial management
systems requirements and the standard general ledger at the transaction level, but did not comply
substantially with applicable Federal standards due to the lack of implementation of SFFAS 4, managerial
cost accounting. As discussed previously, the agency continues to address the implementation of
SFFAS 4 and expects to complete implementation during FY 2002.

The third instance of substantial non-compliance with the Improvement Act relates to FFS business
continuity testing. The FFS is the core accounting system that the NRC uses through an interagency
agreement with the Department of the Treasury (Treasury). This system is reviewed annually by
Treasury's Financial Management Service (FMS) for its client agencies that utilize the system. FMS
performed a vulnerability assessment that disclosed no material or nonmaterial weaknesses. However,
FMS has not tested its business continuity plan for FFS because they plan to terminate the cross-servicing
agreement at the end of FY 2002. The NRC expects to complete the transition of its cross-servicing of
the core accounting system to the National Business Center of the Department of the Interior during
FY 2002.

Biennial Review of User Fees

The Chief Financial Officers Act of 1990 requires agencies to conduct a biennial review of fees,
royalties, rents, and other charges imposed by agencies, and make revisions to cover program and
administrative costs incurred. During FY 2000 and FY 2001, the NRC reviewed each type of fee subject
to the biennial review requirement. Each year, the NRC revises the hourly rates for license and
inspection fees and adjusts the annual fees to meet the fee collection requirements of the Omnibus Budget
Reconciliation Act of 1990. The most recent changes to the license, inspection, and annual fees are
described in the FederalRegister (66 FR 32452, June 14, 2001). The following fees and charges were
also revised to more appropriately recognize actual costs: fees for public use of the auditorium,
administrative charges imposed on delinquent debt (10 CFR 15.37(f)), fees for search and review time to
respond to Freedom of Information Act and Privacy Act requests, and license and inspection fees based
on average number of hours. Reviews of other types of fees concluded that fee revisions were not
warranted at this time.

Management Decisions and Final Actions on 0IG Audit Recommendations

The agency has established and continues to maintain an excellent record in resolving and implementing
open audit recommendations presented in Office of the Inspector General (OIG) reports. Section 5(b) of
the Inspector General Act of 1978, as amended, requires agencies to report on final actions taken on OIG
audit recommendations. Table I gives the dollar value of disallowed costs determined through contract
audits conducted by the Defense Contract Audit Agency. Because of the sensitivity of contractual
negotiations, details of these contract audits are not furnished as part of this report. As of September 30,
2001, there were no outstanding audits recommending that funds be put to better use.




                                                     12
                          MANAGEMENT'S DISCUSSION AND ANALYSIS




                                            Table 1
       Management Report on Office of the Inspector General Audits with Disallowed Costs
                     For the Period October 1, 2000-September 30, 2001

                                                     Number of      Questioned      Unsupported
                   Category                         Audit Reports     Costs             Costs

A.     Audit reports with management                      0              $0                 $0
       decisions on which final action had not
      been taken at the beginning of this
     reporting period.

B.    Audit reports on which management                   1            $2,422               $0
     decisions were made during this period.

C.     Audit reports on which final action was            1            $2,422               $0
      taken during this report period.
      (i) Disallowed costs that were recovered            1            $2,422               $0
          by management through collection,
          offset, property in lieu of cash, or
          otherwise.
      (ii) Disallowed costs that were written off         0              $0                 $0
          by management.

D.    Reports for which no final action had               0              $0                 $0
      been taken by the end of the reporting
     period.


ManagementDecisionsnot Implemented within One Year

Management decisions were made before September 2000 for the OIG audit reports discussed in the
following paragraphs. As of September 30, 2001, the NRC did not take final action on some issues.
However, the OIG did not recommend that funds be otherwise allocated.

IndependentAuditors' Report and PrincipalStatementsfor the Year Ended            September 30, 1998

The OIG determined that the agency's implementation of managerial cost accounting was insufficient to
comply with SFFAS 4, which requires Federal agencies to accumulate and report costs of activities on a
regular basis for management information purposes. In addition, interim cost management information
should be provided to agency managers to support outcomes and outputs realized by the agency.

A cost accounting software package has been installed and is being configured to reflect how the agency
initially plans to report costs, including the allocation of indirect costs. During FY 2001, the cost
accounting module was used to provide agency managers with interim cost reports at the strategic arena
level for labor costs and planned accomplishment level for non-labor costs. In November 2001, the
                                                     13
                            MANAGEMENT'S DISCUSSION AND ANALYSIS

 agency implemented the PeopleSoft Human Resources Management System (FIRMS), which is an
 integral component for implementing managerial cost accounting. The HRMS will enable the agency to
 report labor costs by planned accomplishment. During the first quarter of 2002, the agency expects to
 issue the first set of cost reports utilizing FIRMS data. This will complete the corrective actions to resolve
 the auditor's material internal control weakness in this area.

 IndependentAuditors' Report andPrincipalStatementsfor the Year Ended September 30, 1999

 The OIG recommended that the agency improve management controls over small entity self-certification
 in order to adequately determine the eligibility of small entity applicants. During FY 2001, the NRC
 developed a strategy, to be implemented during FY 2002, that includes a 100 percent review of small
 entity self-certifications. The policy issued December 2001also identifies new sources of information to
 validate or contradict a claim for small entity status. This will complete the planned corrective actions to
 resolve this condition.

NRC's License Fee Development Process Needs Improvement                                    December 14, 1999

The OIG recommended that the methodology for calculating the hourly rate be reevaluated to include the
full-cost concept as embodied in OMB Circular No. A-25, User Fees, and SSFAS 4, ManagerialCost
Accounting Concepts and Standardsfor the FederalGovernment, and that actual billing and cost data be
used to refine future rate calculations.

The agency is in the process of implementing a cost accounting system. When cost accounting is
implemented, the Office of the Chief Financial Officer will use the cost data as input to review and refine,
as appropriate, the existing full cost rate, including identification and assignment of direct and allocated
indirect costs. The agency expects to complete corrective action during the third quarter of FY 2002.

Review of NRC's Decommissioning Fund Program                                                February1, 2000

The OIG recommended: (1) that reviews of decommissioning funds be implemented consistent with the
Standard Review Plan on Power Reactor Licensee Financial Qualifications and Decommissioning
Funding Assurance to ensure that all reporting requirements are met and that reported data is consistent,
and (2) that a lessons learned be conducted to strengthen and enhance the review process.

The agency issued to the power reactor licensees Regulatory Issue Summary 2001-07 entitled "10 CFR
50.75(f)(1) Reports on the Status of Decommissioning Funds (Due March 31, 2001)" on February 23,
2001. The improved quality control process was used during the NRC's review of the biennial trust fund
reports which were due March 31, 2001. When reviewing the licensees' reports, the primary reviewers
verified that all of the reports met all reporting requirements, clearly identified radiological costs, and did
not include non-radiological costs in the licensees' certification amounts. When deficiencies or
ambiguities in the licensees' reports were identified, additional information was obtained from the
licensees.

Based on the findings of the OIG audit and experience gained from the first biennial review in 1999, the
staff completed an evaluation of the lessons learned on December 16, 1999. As part of the March 2001
biennial reviews, another lessons learned study was conducted. As a result, the enhanced quality control


                                                     14
                         MANAGEMENT'S DISCUSSION AND ANALYSIS


measures have been integrated into the review process for evaluating these decommissioning trust fund
reports. The agency considers corrective actions for this audit complete.

Review of the Development and Implementation of STARFIRE                                  June 29, 2000

The OIG recommended that the definition of "significant variation" from approved costs, schedule, and
performance goals for major information technology (IT) projects be clarified so that senior agency
managers can make informed decisions whether or not to continue, modify, or terminate major IT
projects.

As part of the capital planning and investment control (CPIC) process, a lessons learned review is
currently underway to determine if "significant variation" of cost, schedule, and performance goals are
being further clarified, and alternative approaches for monitoring progress are being considered. The
results will be incorporated into Management Directive 2.2, CapitalPlanningandInvestment Control.
The agency expects to complete correction action during the third quarter of FY 2002.

Review of Audit Follow Up System                                                        August 14,2000

The OIG recommended that the Management Directive 6.1 Handbook, Resolution and Follow Up of
Audit Recommendations, be revised to reflect the periodic scheduling standards for conducting analyses
of audit recommendations to determine possible trends and system-wide problems and for conducting
audit follow-up reviews. Trend analyses will be conducted annually and audit follow-up reviews will be
conducted biannually. The agency expects to complete revisions to the Management Directive 6.1
Handbook during the third quarter of FY 2002.

Special Evaluation of the Role and Structure of NRC's Executive Council                 August 31, 2000

The OIG recommended that the NRC's management directives and communication mechanisms be
updated to reflect the responsibilities and alignment of the Executive Director for Operations, the Chief
Financial Officer, and the Chief Information Officer after the Commission decided on a management
strategy for the NRC's Executive Council. In January 2001, the Commission announced the abolishment
of the Executive Council. The Executive Director for Operations, the Chief Financial Officer, and the
Chief Information Officer continued to meet periodically. The agency is currently determining which
management directives require revisions. The agency expects to complete corrective action during the
second quarter of FY 2002.

Review of NRC's Differing ProfessionalView/Differing ProfessionalOpinion Program
September 20, 2000

The OIG recommended that Management Directive 10.159 be revised to improve the oversight and
timeliness of the Differing Professional View/Differing Professional Opinion (DPV/DPO) processes, that
awards be publicized for outstanding issues benefitting the agency that resulted from DPV/DPOs, and
that a special review group be convened every 3 years to assess the DPV/DPO program operations.

A Special Review Panel was convened in May 2001. The panel, which is still in session, has completed
the initial review of all DPV/DPO cases filed since the last special panel met in 1994. Names of potential
interviewees were proposed as a result of this effort. Interviews of all office directors and regional
                                                    15
                         MANAGEMENT'S DISCUSSION AND ANALYSIS

administrators, as well as DPV/DPO filers, ad hoc panel chairs, and panel members selected by the
Special Review Panel, were completed in December 2001.

After all the data have been collected, analyzed, and evaluated, the panel will prepare a report
recommending any necessary changes to or modifications of the DPV/DPO process. Another of
                                                                                                 the
panel's tasks is to make recommendations regarding the recognition of filers whose contributions
                                                                                                  to the
agency have not been adequately recognized. These recommendations will be made concurrent
                                                                                                 with the
issuance of the report.

Revisions to Management Directive 10.159, Differing Professional Views or Opinions, will be made
                                                                                                     in
accordance with the recommendations found in the Special Review Panel's report, as well as other
recommendations found in this OIG report. The new directive will include the requirement that
                                                                                                a Special
Review Panel convene 1 year from the date of its publication and every 3 years thereafter. The
                                                                                               agency
expects to complete corrective action during the fourth quarter of FY 2002.




                                                  16
                                                    NRC ORGANIZATION CHART
                                                      as of September 30, 2001




                 '"1                                          I II

         Commissioner             Commissioner




    AdvisoryCommttee        Office of the        Congressional
     on Nuclear
             Waste        Inspector General         Affairs



     J    Advisory
.      Committee on
     Reactor Safeguards




                                                                     17
INDEPENDENT AUDITORS' REPORT
Vi R. NAVARRO                                                                 2831 Camino Del Rio South, Suite 306
                                                                                      San Diego, California 92108
  /    & ASSOCIATES, INC.                                                                             (619) 298-8193
      ICERTIFIED PUBLIC ACCOUNTANTS




INDEPENDENT AUDITORS' REPORT

Chairman Richard A. Meserve
U.S. Nuclear Regulatory Commission
Rockville, Maryland

We have audited the accompanying balance sheets of the U.S. Nuclear Regulatory Commission (NRC) as
of September 30, 2001 and 2000, and the related statements of net cost, changes in net position, budgetary
resources, and financing for the years then ended, collectively referred to as the financial statements. These
financial statements are the responsibility of the management of NRC. Our responsibility is to express an
opinion on these financial statements based on our audits.

SCOPE

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America, Government Auditing Standards issued by the Comptroller General of the United States, and
Office of Management and Budget (OMB) Bulletin No. 01-02, Audit Requirementsfor Federal Financial
Statements. Those standards require that we plan and perform the audits to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes examining, on
a test basis, evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe our audits provide a reasonable basis
for our opinion.

MATTERS FOR EMPHASIS

Classification of Costs

OMB Bulletin 97-01, Form and Content ofAgency FinancialStatements, as amended, and applicable
sections of OMB Bulletin 01-09, provide guidance to federal agencies for presenting program costs
classified by intragovemmental and public components. The basis for classification relies on the concept of
who received the benefits of the costs incurred (e.g. private sector licensees versus federal licensees) rather
than who was paid. However, following the advice of OMB, NRC classified the costs on the Statement of
Net Cost using an underlying concept of who was paid, rather than who received the benefits. This
presentation does not entirely incorporate the guidance in the Bulletin, however, OMB's guidance enables
the Agency to transition to the required presentation.

 U.S. Department of Energy Expenses

 NRC's principal statements include reimbursable expenses of the U.S. Department of Energy (DOE)
 National Laboratories. NRC's Statements of Net Cost include reimbursed expenses of approximately
 $46.6 and $57.7 million, respectively for the years ended September 30, 2001 and 2000. Our audits
                                                       19
included testing these expenses for compliance with laws and regulations within NRC. The work placed
with DOE is under the auspices of a Memorandum of Understanding between NRC and DOE. The
examination of DOE National Laboratories for compliance with laws and regulations is DOE's
responsibility. This responsibility was further clarified by a memorandum of the General Accounting
Office's (GAO) Assistant General Counsel, dated March 6, 1995, where he opined that "...DOE's inability
to assure that its contractors' costs [National Laboratories] are legal and proper.. .does not compel a
conclusion that NRC has failed to comply with laws and regulations." DOE also has the cognizant
responsibility to assure audit resolution and should provide the results of its audits to NRC.

OPINION

In our opinion, the financial statements referred to in the first paragraph, present fairly, in all material
respects, the financial position of NRC as of September 30, 2001 and 2000, and its net cost, changes in net
position, budgetary resources, and reconciliation of budgetary obligations to net cost for the years then
ended in conformity with accounting principles generally accepted in the United States of America.

As discussed in Note 1.1. to the financial statements, NRC adopted Statement of Federal Financial
Accounting Standards No. 10, Accountingfor Internal Use Software. The adoption of this standard has a
material effect on the comparability of the financial statements.

Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The Management Discussion and Analysis, pages 1-17, and the required supplementary
information, page 38, are not a required part of the financial statements but are information required by
OMB Bulletin No. 97-0 1, Form and Content ofAgency FinancialStatements, as amended, and applicable
sections of OMB Bulletin 01-09. This supplementary information is the responsibility of NRC's
management. We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of the supplementary information.
However, we did not audit such information and we do not express an opinion on it.

In accordance with Government Auditing Standards issued by the Comptroller General of the United
States and OMB Bulletin No. 01-02, Audit Requirementsfor FederalFinancialStatements, we have also
issued our report dated January 16, 2002, on our consideration of NRC's internal control over financial
reporting and our tests of its compliance with certain provisions of laws, regulations, contracts, and grants.
That report is an integral part of this engagement to perform an audit in accordance with Government
Auditing Standardsand should be read in conjunction with this report in considering the results of our
audits.




January 16, 2002




                                                      20
PRINCIPAL STATEMENTS
U.S. Nuclear Regulatory Commission                                                 PrincipalStatements




     BALANCE SHEET
     (Dollarsin Thousands)


     As of September 30                                                             2001         2000
     Assets
     Intragovernmental assets:
         Fund balances with Treasury (Note 2)                                     $140,465    $ 138,740
         Accounts receivable (Note 3)                                                 2,549       1,874
         Other                                                                        1,144       1,225
            Total IntragovernmentalAssets                                           144,158     141,839

     Cash and other monetary assets                                                      20          20
     Accounts receivable, net (Note 3)                                               48,905      42,163
     Property and equipment, net (Note 4)                                            43,788      41,853
     Other                                                                               15          51
            Total Assets                                                          $ 236,886   $ 225,926


     Liabilities
     Intragovernmental liabilities:
        Accounts payable                                                          $ 12,734    $ 10,591
         Other (Notes 5 and 6)                                                      56,411      50,157
            Total IntragovernmentalLiabilities                                      69,145      60,748

     Accounts payable                                                               15,859       15,860
     Federal employees benefits (Notes 1.K. and 6)                                  10,849        8,230
     Other (Notes 5)                                                                47,501      44,937
           Total Liabilities                                                       143,354     129,775

     Net Position
     Unexpended appropriations (Note 8)                                              86,839      87,073
     Cumulative results of operations (Note 9)                                        6,693       9,078
           Total Net Position                                                        93,532      96,151
           Total Liabilitiesand Net Position                                      $ 236,886   $ 225,926




                                 The accompanying notes to the principal
                             statements are an integral part of this statement.


                                                    22
U.S. Nuclear Regulatory Commission
                                                                                 Principal Stnf-fIlrI




     STATEMENT OF NET COST
     (Dollarsin Thousands)


     For the year ended September 30                                              2001           2000
     NuclearReactor Safety                                                            2001       2000
        Intragovernmental                                                      $101,541      $ 103,796
        With the public                                                         233,995        226,621
            Total cost                                                          335,536        330,417
        Less earned revenue                                                    (393,333)      (390,401)

         Net Cost of Nuclear Reactor Safety                                      (57,797)      (59,984)

     NuclearMaterials Safety
       Intragovern mental                                                         19,851        17,873
       With the public                                                            59,292        62,812
           Total cost                                                             79,143        80,685
       Less earned revenue                                                       (49,778)      (51,677)

         Net Cost of NuclearMaterialsSafety                                      29,365         29,008

     Nuclear Waste Safety
       Intragovernmental                                                         24,160         24,691
       With the public                                                           61,931         59,010
           Total cost                                                            86,091         83,701
       Less earned revenue                                                      (18,636)       (17,882)

        Net Cost of Nuclear Waste Safety                                         67,455        65,819

     InternationalNuclearSafety Support
        Intragovern mental                                                        6,151         7,892
        With the public                                                           7,695         8,034
            Total cost                                                           13,846        15,926
        Less earned revenue                                                      (2,233)       (3,078)

        Net Cost of InternationalNuclear Safety Support                          11,613        12,848

        Net Cost of Operations                                                 $ 50,636      $ 47,691




                              The accompanying notes to the principal
                          statements are an integral part of this statement.


                                                 23
U.S. Nuclear Regulatory Commission                                                  PrincipalStatements



      STATEMENT OF CHANGES IN NET POSITION
      (Dollarsin Thousands)


      For the year ended September 30                                                 2001         2000
      Net Cost of Operations                                                       $ (50,636)   $ (47,691)

      Financingsources other than exchange revenue (Note 12)

        Appropriations used                                                          31,042       26,120
        Non-exchange revenue                                                            657          875
        Imputed financing                                                            17,209       16,033
        Transfers-in                                                                453,348      447,000
        Transfers-out                                                              (454,005)    (447,875)
            Total FinancingSources                                                   48,251       42,153

      Net Results of Operations                                                       (2,385)        (5,538)

      Increase (Decrease) in unexpended appropriations                                 (234)        (16,177)

      Chanige in Net Position                                                         (2,619)       (21,715)

      Net Position- Beginning of Period                                              96,151         116,553

      Prior-period adjustment (Note 13)                                                    -          1,313

      Net Position                                                                   96,151         117,866

      Net Position- End of Period                                                  $ 93,532     $    96,151




                                 The accompanying notes to the principal
                              statements are an integral part of this statement.

                                                     24
U.S. Nuclear Regulatory Commission
                                                                                   PrincipalSftatements




     STATEMENT OF BUDGETARY RESOURCES
     (Dollarsin Thousands)


     For the year ended September 30                                               2001            2000
     Budgetary Resources                                                               2001        2000

       Budget authority                                                         $490,228      $ 471,975
       Unobligated balances - beginning of period                                 30,377         29,894
       Spending authority from offsetting collections                              4,152          5,517
       Adjustments                                                                 7,451          8,525
          Total Budgetary Resources                                              532,208        515,911


     Status of Budgetary Resources

       Obligations incurred                                                      503,304        485,534
       Unobligated balances - available                                           28,317         29,787
       Unobligated balances - not available                                          587            590
           Total Status of Budgetary Resources                                   532,208        515,911


     Outlays

       Obligations incurred                                                      503,304        485,534
       Less: Spending authority from offsetting
                collections and adjustments                                      (11,630)        (14,129)
                    Subtotal                                                     491,674        471,405
       Obligated balances, net - beginning of period                              104,044        116,583
       Less: obligated balance, net - end of period                              (108,704)      (104,044)
           Total Outlays                                                        $487,014      $ 483,944




                               The accompanying notes to the principal
                           statements are an integral part of this statement.


                                                  25
U.S. NuclearRegulatory Commission
                                                                                    PrinCinalStatements
                                                                                    PrininI  tRf.2m0nt




     STATEMENT OF FINANCING
     (Dollarsin Thousands)


     For the year ended September 30                                                 2001          2000
     Obligationsand Nonbudoetarv Resources                                               2001      2000

        Obligations incurred                                                      $503,304      $485,533
        Less: Spending authority for offsetting collections                         (11,630)     (14,129)
                 and adjustments
        Imputed financing (Note 12)                                                 17,209        16,033
        Transfers- in (Note 12)                                                    453,348       447,000
        Transfers - out (Note 12)                                                 (453,348)     (447,000)
        Exchange revenues not in the budget (Note-10)                             (459,392)     (457,944)
            Total Obligationsand NonbudgetaryResources                              49,491        29,493

     Resources Not FundingNet Cost of Operations

        Change in undelivered orders                                                (1,239)       12,660
        Capitalized costs                                                          (11,072)       (6,683)
        Other                                                                        2,258           520
           Total Obligationsand Nonbudgetary Resources                             (10,053)        6,497

     Costs Not Requiring Resources

        Depreciation and amortization                                                7,474         6,536
           Total Costs Not Requiring Resources                                       7,474         6,536
     FinancingSources Yet to be Provided                                             3,724         5,165
           Net Cost of Operations                                                 $ 50,636      $ 47,691




                                 The accompanying notes to the principal
                             statements are an integral part of this statement.

                                                    26
U.S. Nuclear Regulatory Commission                                             PrincipalStatements

                            NOTES TO PRINCIPAL STATEMENTS

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
A.   Reporting Entity
     The U.S. Nuclear Regulatory Commission (NRC) is an independent regulatory agency of the
     Federal Government that was created by the U.S. Congress to regulate the Nation's civilian use
     of byproduct, source, and special nuclear materials to ensure adequate protection of the public
     health and safety, to promote the common defense and security, and to protect the
     environment. Its purposes are defined by the Energy Reorganization Act of 1974, as amended,
     along with the Atomic Energy Act of 1954, as amended, which provide the foundation for
     regulating the Nation's civilian use of nuclear materials.
     The NRC operates through the execution of its congressionally approved appropriations for
     salaries and expenses and the Inspector General, including funds derived from the Nuclear
     Waste Fund. In addition, transfer appropriations are provided by the U.S. Agency for
     International Development for the development of nuclear safety and regulatory authorities in
     Russia, Ukraine, Kazakhstan, and Armenia for the independent oversight of nuclear reactors in
     these countries.
B.   Basis of Presentation
     These principal statements were prepared to report the financial position and results of
     operations of the NRC as required by the Chief Financial Officers Act of 1990 and the
     Government Management Reform Act of 1994. These financial statements were prepared from
     the books and records of the NRC in conformity with accounting principles generally accepted
     in the United States of America, the requirements of Office of Management and Budget (OMB)
     Bulletin Nos. 97-01 and 01-09, Form and Content of Agency FinancialStatements, technical
     amendments, and NRC accounting policies. These statements are, therefore, different from the
     financial reports, also prepared by the NRC pursuant to OMB directives, which are used to
     monitor and control NRC's use of budgetary resources. NRC has not prepared a Statement of
     Custodial Activity because the amounts involved are immaterial and are incidental to its
     operations and mission.
     The strategic arenas as presented on the Statement of Net Cost are based on the strategic
     plans and are described as follows:
            Nuclear Reactor Safety encompasses all NRC efforts to ensure that civilian nuclear
            power reactor facilities, as well as non-power reactors, are operated in a manner that
            adequately protects public health and safety and the environment, and protects against
            radiological sabotage and theft or diversion of special nuclear materials.
            Nuclear Materials Safety encompasses NRC efforts to ensure that NRC-regulation
            aspects of nuclear fuel cycle facilities and nuclear materials activities are handled in a
            manner that provides adequate protection of public health and safety.
            Nuclear Waste Safety encompasses NRC's regulatory activities associated with
            uranium recovery, decommissioning, storage of spent nuclear fuel, transportation of
            radioactive materials, and disposal of radioactive wastes.
            International Nuclear Safety Support encompasses NRC's efforts of international
            cooperation to help ensure the safe, secure, and environmentally acceptable uses of
            nuclear energy.
C.   Budgets and Budgetary Accounting
      Budgetary accounting measures appropriation and consumption of budget/spending authority or
      other budgetary resources and facilitates compliance with legal constraints and controls over

                                                   27
U.S. Nuclear Regulatory Commission                                              PrincipalStatements

                             NOTES TO PRINCIPAL STATEMENTS

      the use of Federal funds. Under budgetary reporting principles, budgetary resources are
      consumed at the time of purchase. Assets and liabilities, which do not consume current
      budgetary resources, are not reported, and only those liabilities for which valid obligations have
      been established are considered to consume budgetary resources.
      For the past 27 years, Congress has enacted no-year appropriations, which are available for
      obligation by NRC until expended. The Energy and Water Development Appropriations Act,
      2001, required the NRC to recover approximately 98 percent of its new budget authority of
      $487.2 million by assessing fees less amounts derived from the Nuclear Waste Fund of $21.6
      million and $3.2 million from the General Fund. For FY 2000, the NRC recovered
      approximately 100 percent of its new budget authority of $469.9 million, as required by the
      Omnibus Budget Reconciliation Act (OBRA) of 1990, as amended, less $19.2 million derived
      from the Nuclear Waste Fund and $3.8 million from the General Fund.
D.    Basis of Accounting
      Transactions are recorded on both an accrual accounting basis and on a budgetary basis.
      Under the accrual method, revenues are recognized when earned and expenses are
      recognized when a liability is incurred, without regard to receipt or payment of cash. Interest on
      borrowings of the U.S. Treasury is not included as a cost to NRC's programs and is not
      included in the accompanying financial statements.
E.    Revenues and OtherFinancingSources
      The NRC is required to offset its appropriations by the amount of revenues received during the
      fiscal year by assessing fees. The NRC assesses two types of fees to recover its budget
      authority: (1) fees assessed under 10 Code of Federal Regulations (CFR) Part 170 for
      licensing, inspection, and other services under the authority of the Independent Offices
      Appropriation Act of 1952 to recover the NRC's costs of providing individually identifiable
      services to specific applicants and licensees; and (2) annual fees assessed for nuclear facilities
      and materials licensees under 10 CFR Part 171. All fees, with the exception of civil penalties,
      are exchange revenues in accordance with Statement of Federal Financial Accounting
      Standards No. 7, Accounting for Revenue and Other FinancingSources and Concepts for
      Reconciling Budgetary and FinancialAccounting.
      For accounting purposes, appropriations are recognized as financing sources (appropriations
      used) at the time expenses are accrued. At the end of the fiscal year, appropriations
       recognized are reduced by the amount of assessed fees collected during the fiscal year to the
       extent of new budget authority for the year. Collections which exceed the new budget authority
       are held to offset subsequent years' appropriations. Appropriations expended for property and
       equipment are recognized as expenses when the asset is consumed in operations (depreciation
       and amortization).
F.     Fund Balances with Treasury and Cash and OtherMonetary Assets
       The NRC's cash receipts and disbursements are processed by the U.S. Treasury. The fund
       balances with the U.S. Treasury and cash are primarily appropriated funds that are available to
       pay current liabilities and to finance authorized purchase commitments. Funds with Treasury
       represent NRC's right to draw on the U.S. Treasury for allowable expenditures. All amounts are
       available to NRC for current use. Cash balances held outside the U.S. Treasury are not
       material.
 G.    Accounts Receivable
       Accounts receivable consist of amounts owed to the NRC by other Federal agencies and the
       public. Amounts due from the public are presented net of an allowance for uncollectible

                                                    28
 U.S. Nuclear Regulatory Commission                                                 PrincipalStatements

                                 NOTES TO PRINCIPAL STATEMENTS

        accounts. The allowance is based on an analysis of the outstanding balances.
                                                                                        Receivables
        from Federal agencies are expected to be collected; therefore, there is no
                                                                                   allowance for
        uncollectible accounts.
 H.     Non-Entity Assets
       Accounts receivable include non-entity assets of $133 thousand and $214
                                                                                  thousand at
       September 30, 2001, and 2000, and consists of miscellaneous penalties
                                                                                and interest due from
       the public, which, when collected, must be transferred to the U.S. Treasury.
       Propertyand Equipment
       Property and equipment consist primarily of typical office furnishings, nuclear
       simulators, and computer hardware and software. The agency has no real reactor
                                                                                     property. The land
       and buildings in which NRC operates are provided by the General Services
                                                                                     Administration
       (GSA), which charges NRC rent that approximates the commercial rental
                                                                                   rates for similar
       properties.
       Property with a cost of $50,000 or more per unit and a useful life of 2 years
                                                                                      or more is
       capitalized at cost and depreciated using the straight-line method over the
                                                                                     useful
       property items are expensed when purchased. Normal repairs and maintenance life. Other
                                                                                            are charged to
       expense as incurred.
       NRC adopted Statement of Federal Financial Accounting Standards No. 10,
                                                                                          Accounting for
       Internal Use Software, effective October 1, 2000. The standard requires
                                                                                     the capitalization of
       the costs of internal use software and provides guidance on capitalization
                                                                                       thresholds,
       capitalization timing, and cost elements to capitalize, including the full cost
                                                                                        of salaries and
       benefits for agency personnel involved in software development.
J.    Accounts Payable
      Accounts payable represent vendor invoices for services received by NRC
                                                                                  that will be paid in
      the next fiscal year. Also included in these amounts are contract holdbacks
                                                                                   on contracts that
      have not been fully closed and advances that represent collections received
                                                                                    in advance of
      performing services under a variety of reimbursable agreements. The services
                                                                                        will be provided
      and the revenue earned in a subsequent fiscal year.
K.    LiabilitiesNot Covered by Budgetary Resources
       Liabilities represent the amount of monies or other resources that are likely
                                                                                      to be paid by NRC
      as the result of a transaction or event that has already occurred. No liability
                                                                                       can be paid by
      NRC absent an appropriation. Liabilities for which an appropriation has not
                                                                                      been enacted and
      for which there is no certainty that an appropriation will be enacted are classified
                                                                                            as Liabilities
      Not Covered by Budgetary Resources. Also, NRC liabilities arising from sources
                                                                                            other than
      contracts can be abrogated by the Government acting in its sovereign capacity.
      Intragovemmental
      The U.S. Department of Labor (DOL) paid Federal Employees Compensation
                                                                                  Act (FECA)
      benefits on behalf of NRC which had not been billed or paid by NRC as of
                                                                               September 30, 2001,
      and 2000.
      FederalEmployee Benefits
      Federal employee benefits represent the actuarial liability for estimated future
                                                                                        FECA disability
      benefits. The future workers' compensation estimate was generated by DOL
                                                                                       from an
      application of actuarial procedures developed to estimate the liability for FECA,
                                                                                          which includes
      the expected liability for death, disability, medical, and miscellaneous costs
                                                                                     for approved

                                                    29
I I _€ Nnrwlpr ReArulatorv
                   ------         Commission                                  PrincipalStatements
                                                                              PicplSaeet

                            NOTES TO PRINCIPAL STATEMENTS

     compensation cases. The liability was calculated using historical benefit payment patterns
     related to a specific incurred period to predict the ultimate payments related to that period.
     These projected annual benefit payments were discounted to present value. The interest rate
     assumptions utilized for discounting were 5.21 percent in year 1 and 5.21 percent in year 2 and
     thereafter.
     Other
     Accrued annual leave represents the amount of annual leave earned by NRC employees but
     not yet taken.
L.   Contingencies
     Contingent liabilities are those where the existence or amount of the liability cannot be
     determined with certainty pending the outcome of future events. The NRC is a party to various
     administrative proceedings, legal actions, environmental suits, and claims brought by or against
     it. Based on the advice of legal counsel concerning contingencies, it is the opinion of
     management that the ultimate resolution of these proceedings, actions, suits, and claims will not
     materially affect the agency's financial statements.
M.   Annual, Sick, and Other Leave
     Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each
     year, the balance in the accrued annual leave liability account is adjusted to reflect current pay
     rates. To the extent that current or prior year funding is not available to cover annual leave
     earned but not taken, funding will be obtained from future financing sources. Sick leave and
     other types of nonvested leave are expensed as taken.
N.   Retirement Plans
     NRC employees belong to either the Federal Employees Retirement System (FERS) or the
     Civil Service Retirement System (CSRS). During FY 2001, for employees belonging to FERS,
     the NRC withheld 0.8 percent of base pay earnings, in addition to Federal Insurance
     Contribution Act (FICA) withholdings, and matched the withholdings with a 10.7 percent
     contribution. During FY 2000, for employees belonging to FERS, the NRC withheld 1.2 percent
     of base pay earnings and matched the withholding with a 10.7 percent contribution. The sum
     was transferred to the Federal Employees Retirement Fund. During FY 2001, for employees
     covered by CSRS, NRC withheld 7 percent of base pay earnings. This withholding was
     matched by NRC with an 8.51 percent contribution. During FY 2000, for employees belonging
     to CSRS, NRC withheld 7.4 percent of base pay earnings. This withholding was matched by
      NRC with a 8.51 percent contribution, and the sum of the withholding and the match was
     transferred to the CSRS.
      The Thrift Savings Plan (TSP) is a retirement savings and investment plan for employees
      belonging to either FERS or CSRS. For employees belonging to FERS, NRC automatically
      contributes one percent of base pay to their account and matches contributions up to an
      additional four percent. The maximum percentages of base pay that an employee participating
      in FERS may contribute was 10 percent in calendar year (CY) 2000. In CY 2001 the maximum
      rate was 10 percent through June 30, 2001 and 11 percent thereafter. Employees belonging to
      CSRS were able to contribute a maximum of 5 percent during CY 2000. In CY 2001 they were
      allowed to contribute 5 percent through June 30, 2001, and 6 percent thereafter. CSRS
      contributions made were of their base pay, and there is no NRC matching of the contribution.
      The maximum amount that either FERS or CSRS employees may contribute to the plan was
      $10.5 thousand in CY 2001 and CY 2000. The sum of the employees' and NRC's contributions
      are transferred to the Federal Retirement Thrift Investment Board.

                                                   30
     U.S. Nuclear Regulatory Commission                                               PrincipalStatements

                                 NOTES TO PRINCIPAL STATEMENTS

        The NRC does not report on its financial statements FERS and CSRS assets, accumulated
        plan benefits, or unfunded liabilities, if any, applicable to its employees. Reporting such
        amounts is the responsibility of the U.S. Office of Personnel Management. The portion
                                                                                                    of the
        current and estimated future outlays for CSRS not paid by NRC is, in accordance with
        Statement of Federal Financial Accounting Standards No. 5, Accounting for Liabilities
                                                                                                  of the
        FederalGovernment, included in NRC's financial statements as an imputed financing
                                                                                                  source.
 0.     Leases
        The total capital lease liability is funded on an annual basis and included in NRC's
                                                                                             annual
        budget. The NRC's capital leases are for personal property consisting of reproduction
        equipment, which is installed in various NRC facilities. The leases are for 3 and 5 years
                                                                                                  and
        the interest rates paid were 6.59 percent and 4.75 percent, respectively. The reproduction
        equipment is depreciated over 5 years using the straight-line method with no salvage
                                                                                               value.
        Operating leases consist of real property leases with GSA. The leases are for NRC's
        headquarters offices and regional offices. The GSA charges NRC lease rates which
        approximate commercial rates for comparable space.
 P.     U.S. Departmentof Energy Charges
         Financial transactions between the Department of Energy (DOE) and NRC are fully
                                                                                             automated
        through the U.S. Treasury's On-Line Payment and Collection (OPAC) System. The
                                                                                             OPAC
         System allows DOE to collect amounts due from NRC directly from NRC's account
                                                                                            at the U.S.
        Treasury for goods and/or services rendered. Project manager verification of goods
                                                                                              and/or
        services received is subsequently accomplished through a system-generated voucher
                                                                                                approval
        process. The vouchers are returned to the Office of the Chief Financial Officer documenting
        that the charges have been accepted.
Q.     PricingPolicy
       The NRC provides goods and services to the public and other Government entities.
                                                                                                    In
       accordance with OMB Circular No. A-25, User Charges, and the Independent Offices
       Appropriation Act of 1952, NRC assesses fees under 10 CFR Part 170 for licensing
                                                                                                   and
       inspection activities to recover the full cost of providing individually identifiable services.
       The NRC's policy is to recover the full cost of goods and services provided to other
                                                                                                  Government
       entities where: (1) the services performed are not part of its statutory mission and (2)
                                                                                                     NRC has
       not received appropriations for those services. Fees for reimbursable work are assessed
       10 CFR Part 170 rate with minor exceptions for programs that are nominal activities               at the
                                                                                                   of the NRC.
R.     Net Position
       The NRC's net position consists of unexpended appropriations and cumulative results
                                                                                             of
       operations. Unexpended appropriations represent appropriated spending authority
                                                                                          that is
       unobligated and has not been withdrawn by Treasury, and obligations that have not
                                                                                           been paid.
       Cumulative results of operations represent the excess of financing sources over expenses
       since inception.
S.     Use of Management Estimates
       The preparation of the accompanying financial statements in accordance with generally
       accepted accounting principles requires management to make certain estimates and
       assumptions that directly affect the results of reported assets, liabilities, revenues, and
       expenses. Actual results could differ from these estimates.



                                                     31
l1_S Nudl~ar Reaulatorv Commission                                                  PrincipalStatements
11   S NuclearReaulatorv Commission
                              NOTES TO PRINCIPAL STATEMENTS


NOTE 2. FUND BALANCES WITH TREASURY

       (In thousands)                                                                2001              2000
       Fund Balances
       Appropriated funds                                                      $ 137,588           $ 134,402
                                                                                   2,877               4,338
       Other fund types
                                                                               $ 140,465.          $ 138,740
           Total


       Status of Fund Balance with Treasury
       Unobligated Balance
                                                                               $   31,194          $  34,125
        Available
                                                                                      587                590
         Unavailable
                                                                                  108,684            104,025
       Obligated balance not yet disbursed
                                                                                $ 140.465          $ 138,740
          Total



NOTE 3. ACCOUNTS RECEIVABLE

       (In thousands)
       Intragovernmental
       Receivables and reimbursements                                                 L__2549      $    1874


       Receivables with the Public
       Materials and facilities fees - billed                                   $    10,445        $    5,419
                                                                                     41,300            39,864
       Materials and facilities fees - unbilled
                                                                                         222              359
       Other (Penalties and Interest)
                                                                                     51,967            45,642
          Total Accounts Receivable
                                                                                      (3,062)          (3,479)
       Less: Allowance for uncollectible accounts
                                                                                $    48,905        $   42,163
          Accounts Receivable, Net

NOTE 4.     PROPERTY AND EQUIPMENT, NET

      (In thousands)                                                                        2001       2000
                                                                    Accumulated
                                           Service Acquisition    Depreciation and Net Book Net Book
             Fixed Assets Class             Years    Value          Amortization       Value      Value
      Equipment                              5-8   $    19,191    $        (16,372) $     2,819 $   3,315
      ADP software                            5         48,712             (34,237)     14,475     18,112
      ADP software under development          -         14,708                    -     14,708      7,738
      Leasehold improvements                 20         19,725               (8,096)    11,629     12,593
                                              -             157                             157         95
      Leasehold improvements in progress
                                                   $   102,493    $         (58,705) $   43.788 $ 41.853




                                                     32
 U.S. Nuclear Regulatory Commission                                                        PrincipalStatements

                                NOTES TO PRINCIPAL STATEMENTS

 NOTE 5. OTHER LIABILITIES

    (In thousands)
    Liability to offset net accounts receivable for fees assessed                           2001                 2000
                                                                                      $     50,813         $     43,388
    Liability from fees collected which will offset subsequent
       years' appropriations
                                                                                              1,724              3,173
    Liability to offset miscellaneous accounts receivable
                                                                                                133                214
    Advances from other Federal agencies
    Accrued workers' compensation                                                                                   22
                                                                                             1,780               1,521
    Employee benefit contributions
                                                                                             1,961               1,839
        Total Intragovern mental Other Liabilities
                                                                                      $     56,411         $    50,157
The liability to offset the net accounts receivable for fees assessed represents amounts which, when
collected, will be transferred to the U.S. Treasury to offset NRC's appropriations
                                                                                   in the year collected.

    (In thousands)
    Accrued annual leave                                                                    2001                2000
                                                                                      $     26,473         $    25,627
    Accrued salaries
                                                                                            16,143              14,303
    Contract holdbacks, advances, and other
                                                                                             4,885               5,007
       Total Other Liabilities
                                                                                      $     47,501         $    44,937
All other liabilities, except accrued annual leave, contract holdbacks, and advances from others, are
current.
NOTE 6. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

    (In thousands)                                                                         2001
   Intragovemmental                                                                                             2000
   FECA paid by DOL
                                                                                      $      1,780         $     1,521
   Federal Employee Benefits
   Future FECA
                                                                                            10,849               8,230
   Other
   Accrued annual leave
                                                                                           26,473              25,626
   Capital lease liability
                                                                                              167                 181
       Total Liabilities not Covered by Budgetary Resources
                                                                                  $        39,269      $       35,558
NOTE 7. LEASES

   Future Lease Payments Due:
                                                                                          2001                 2000
                      Fiscal Year                 Capital           Operating
                                2001             $                  $                                  $  20,170
                                2002                    89               19,509            19,598         19,477
                                2003                    76               19,474            19,550         19,418
                                2004                     2               19,563            19,565         19,457
                   2005 and thereafter                                  158,255           158,255        158,190
                                 Total                 167              216,801           216,968        236,712
   Less: imputed interest
                                                         (9)                                     (9)          (12)
      Total Future Lease Payments            $         158      $       216,801   $ 216,959            $ 236,700

NOTE 8. UNEXPENDED APPROPRIATIONS
   (In thousands)
                                                                                          2001                 2000
   Unobligated
                                                                                  $       18,493       $       18,711
   Undelivered orders                                                                     68,346               68,362
      Total Unexpended Appropriations
                                                                                  $       86,839       $       87,073



                                                      33
U.S. Nuclear Regulatory Commission                                                PrincipalStatements

                                NOTES TO PRINCIPAL STATEMENTS

Undelivered orders are amounts which have been obligated but not yet expended. The unobligated
appropriations balance does not include $2,933 thousand and $3,054 thousand in unfilled customer
orders - unobligated as of September 30, 2001, and September 30, 2000, respectively. The
undelivered orders balance does not include $1,966 thousand and $2,886 thousand in unfilled
customer orders - obligated as of September 30, 2001, and September 30, 2000, respectively.

NOTE 9. CUMULATIVE RESULTS OF OPERATIONS

   (In thousands)                                                               2001                  2000
   Future funding requirements                                               $ (39,102)         $ (35,377)
   Investment in property and equipment, net                                    43,788             41,853
   Contributions from foreign cooperative research agreements                    1,984              2,506
   Other                                                                            23                 96
       Cumulative Results of Operations                                      $   6,693          $   9,078


Future funding requirements represent the amount of future funding needed to pay the accrued
unfunded expenses as of September 30, 2001, and 2000. These accruals are not funded from current
or prior-year appropriations and assessments, but rather should be funded from future appropriations
and assessments. Accordingly, future funding requirements have been recognized for the expenses
that will be paid from future appropriations.

NOTE 10. EXCHANGE REVENUES

    (In thousands)                                                                  2001           2000
    Fees for licensing, inspection, and other services                           $ 459,392      $ 457,944
    Revenue from reimbursable work                                                   4,589          5,094
        Total Exchange Revenues                                                  $ 463,981      $ 463,038



NOTE 11.     BUDGET FUNCTIONAL CLASSIFICATION

    (In thousands)                                                                    2001            2000
                                                                   Earned
    Functional Classification                      Gross Cost     Revenue     Net Cost              Net Cost
    276 - Energy Information, Policy, & Regulation $  511,644    $ (463,792) $ 47,852           $     44,441
    150 - AID International Affairs                $     2,972   $       (188) $        2,784   $      3,249
    800 - GSA General Government                                                                           1
       Total                                       $   514,616   $   (463,980)    $    50,636   $     47,691



    Intragovernmental
    (In thousands)                                                               2001                 2000
                                                                   Earned
    Functional Classification                        Gross Cost   Revenue       Net Cost         Net Cost
    276 - Energy Information, Policy, & Regulation $ 149,865 $       (29,241) $ 120,624         $ 121,001
    150 - AID International Affairs                       1,838 $       (188)       1,650           2,171
      Total                                        $    151,703 $    (29,429) $  122,274        $ 123,172




                                                         34
 U.S. Nuclear Regulatory Commission                                              PrincipalStatements

                                NOTES TO PRINCIPAL STATEMENTS

 NOTE 12. FINANCING SOURCES OTHER THAN EXCHANGE REVENUE

 Appropriations Used

 Appropriations used is recognized to the extent that appropriated funds have been consumed
                                                                                            less the
 amount collected from fees assessed for licensing, inspections, and other services.
    (Inthousands)                                                                 2001
    Fees collected                                                                               2000
                                                                               $ 455,044      $ 450,077
    Less: collection from fees assessed                                         (453,348)      (447,000)
       Collected Fees Available to Offset Subsequent Years' Appropriations     $ 1,696        $ 3,077

Collections were used to reduce the fiscal year's appropriations recognized:

    (In thousands)                                                                2001           2000
    Appropriated funds consumed                                                $ 490,434      $ 484,064
    Less: collection from fees assessed                                         (453,348)      (447,000)
        Subtotal                                                                  37,086
    Amounts to offset subsequent years' appropriations                                           37,064
                                                                                   (6,044)      (10,944)
        Appropriations Used                                                    $ 31,042       $ 26,120
Appropriated funds consumed includes $30,377 thousand for FY 2001 and $29,894
                                                                              thousand for
FY 2000 of available funds from prior years.

Non-Exchange Revenue

    (In thousands)                                                             2001
    Civil penalties                                                                              2000
                                                                             $    345        $     632
    Miscellaneous receipts                                                        312
        Total Non-Exchange Revenue                                                                 243
                                                                             $    657        $     875

Imputed Financing
    (In thousands)                                                               2001           2000
    Civil Service Retirement System                                          $     9,676     $   9,173
    Federal Employee Health Benefit                                                7,486
    Federal Employee Group Life Insurance                                                        6,807
                                                                                      47            45
    U.S. Treasury Judgement Fund
                                                                                                     8
       Total Imputed Financing                                               $ 17,209        $ 16,033

Transfers In/Out

   (In thousands)                                                               2001
   Transfers in from Treasury                                                                   2000
                                                                             $ 453,348       $ 447,000
   Transfers out to Treasury
     License Fees                                                              453,348
    Non-exchange revenue                                                                        447,000
                                                                                   657              875
      Total Transfer-Out to Treasury                                         $454,005        $ 447.875
U.S. Nuclear Regulatory Commission                                                PrincipalStatements

                               NOTES TO PRINCIPAL STATEMENTS

NOTE 13. PRIOR-PERIOD ADJUSTMENT

The prior-period adjustment reported in FY 2000 of $1,313 thousand consists of the net value of
computer hardware components received in FY 1999 by NRC but not capitalized as other assets,
equipment not in use. The assets were placed into operation during FY 2000. The impact of this
adjustment was to increase property and equipment, net, and cumulative results of operations as of
September 30, 1999, by $1,313 thousand.

NOTE 14. RECLASSIFICATIONS

Certain prior-year amounts have been reclassified to conform to the current year presentation.

NOTE 15. SUMMARY OF BUDGETARY RESOURCES

(In thousands)                                                   2001                             20O00
                                             X0200           X0300 All Other       Total         Total
Budgetary Resources
 Budget authority                           $ 481,766    $   5,500 $    2,962 $ 490,228       $ 471,975
 Unobligated balances
   beginning of period                         27,682          898      1,797       30,377       29,894
 Spending authority from
                                                4,152             -                  4,152        5,517
   offsetting collections
 Adjustments                                    7,156          279         16        7,451        8,525
  Total Budgetary Resources                 $ 520,756    $   6,677 $    4,775 $    532,208    $ 515,911


Status of Budgetary Resources:              $ 494,730
  Obligations incurred                                   $    5,956 $   2,618 $    503,304    $ 485,534
  Unobligated balances - available             26,026           721     1,570       28,317       29,787
                                                                   -      587          587          590
  Unobligated balances - not available
   Total Status of Budgetary Resources      $ 520,756    $    6,677 $   4,775 $    532,208    $ 515,911


Outlays:
                                            $ 494,730    $    5,956 $   2,618 $    503,304    $ 485,534
 Obligations incurred
 Less: Spending authority from
   offsetting collections and adjustments                                 (16)     (11,630)      (14,129)
                                              (11,335)        (279)
 Obligated balance, net beginning
   of period                                   98,927         1,064     4,053      104,044      116,583
 Less: Obligated balance, net
                                                               (910)  (3,716) (108,704)        (104,045)
   end of period                             (104,078)
  Total Outlays                             $ 478,244    $    5,831 $ 2,939 $ 487,014         $ 483,943



The adjustments of $7,451 thousand for FY 2001 and $8,525 thousand for FY 2000 to budgetary
resources above consist of recoveries to prior-year obligations less $27.3 thousand for FY 2001 and
$87 thousand that was rescinded for FY 2000.




                                                   36
REQUIRED SUPPLEMENTARY INFORMATION
U.S. Nuclear Regulatory Commission                         Required Supplementary Information




   As of September 30                                                    2001            2000
   Intragovernmental Assets
        Fund Balance with Treasury
           Department of the Treasury                                $ 140,465       $ 138,740
        Accounts Receivable
           Tennessee Valley Authority                                      1,283          1,025
           Department of Veterans Affairs                                   162             280

           Department of Energy                                             817             225

           Other Agencies                                                   287             344

             Total Accounts Receivable                                    2,549           1,874

        Other Assets
           Department of Commerce                                               29          137

           Department of Interior                                           486             171
           Department of the Navy                                               11          209

           Department of Labor                                              256             267
           General Services Administration                                  329             326
           Other Agencies                                                       33          115

              Total OtherAssets                                            1,144          1,225
                 Total IntragovemmentalAssets                        $ 144,158       $ 141,839



   As of September 30                                                    2001            2000

   Intragovemmental Liabilities
       Accounts Payable
          General Services Administration                            $    7,841      $    5,182
          Department of Energy                                            4,082           4,747
          Other Agencies                                                    811             662
              Total Accounts Payable                                     12,734          10,591
       Other Liabilities
          Department of Labor                                              1,781          1,521
          Department of the Treasury - General Fund                      52,670          46,775
          Office of Personnel Management                                   1,960          1,839
          Other Agencies                                                         -              22

              Total Other Liabilities                                    56,411          50,157
                 Total IntragovernmentalLiabilities                  $ 69,145        $ 60,748




                                                      38
  INDEPENDENT ACCOUNTANTS' REPORT ON MANAGEMENT'S
ASSERTION ABOUT THE EFFECTIVENESS ON INTERNAL CONTROL
 AND INDEPENDENT AUDITORS' REPORT ON COMPLIANCE WITH
                LAWS AND REGULATIONS
           R. NAVARRO                                                         2831 Camino
                                                                                      San Del
 Sl                                                                                           Rio California
                                                                                          Diego,  South, Suite 306
                                                                                                             92108
      4&   ASSOCIATES, INC.                                                                        (619) 298-8193
      CERTIFIED PUBLIC ACCOUNTANTS




INDEPENDENT ACCOUNTANTS' REPORT ON MANAGEMENT'S ASSERTION ABOUT THE
EFFECTIVENESS OF INTERNAL CONTROL AND INDEPENDENT AUDITORS' REPORT ON
COMPLIANCE WITH LAWS AND REGULATIONS

Chairman Richard A. Meserve
U.S. Nuclear Regulatory Commission
Rockville, Maryland

INDEPENDENTACCOUNTANTS' REPORT ON MANAGEMENTS ASSERTION ABOUT THE
EFFECTIVENESS OF INTERNAL CONTROL

We have examined management's assertion that the U.S. Nuclear Regulatory Commission's (NRC)
systems of accounting and internal control in place as of September 30, 2001, are in compliance with the
internal control objectives defined in Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
Requirementsfor FederalFinancialStatements. The Bulletin states that transactions should be properly
recorded, processed, and summarized to enable the preparation of the principal statements in accordance
with Federal accounting standards, and assets are to be safeguarded against loss from unauthorized
acquisition, use or disposal. Management is responsible for maintaining effective internal control over
financial reporting. Our responsibility is to express an opinion on management's assertion based on our
examination.

Our examination was made in accordance with the attestation standards established by the American
Institute of Certified Public Accountants; the standards applicable to financial audits contained in
Government Auditing Standards,issued by the Comptroller General of the United States; and, OMB
Bulletin No. 0 1-02, and accordingly, included obtaining an understanding of the agency's internal controls,
determining whether these internal controls had been placed in operation, assessing control risk, and
performing tests of controls and other procedures as we considered necessary in the circumstances. We
believe that our examination provides a reasonable basis for our opinion. Our examination was of the
internal controls in place as of September 30, 2001.

Because of inherent limitations in internal control, misstatements due to errors or fraud may occur and not
be detected. Also, projections of any evaluation of the internal control over financial reporting to future
periods are subject to the risk that the internal control may become inadequate due to changes in conditions,
or that the degree of compliance with the policies and procedures may deteriorate.

 In our opinion, management's assertion that NRC's accounting systems and the internal controls in place
 as of September 30, 2001 are in compliance with the internal control objectives defined in OMB Bulletin
 No. 0 1-02 is not fairly stated. Management did not identify the lack of managerial cost accounting, nor did
 they identify an adequate system to monitor the implementation of accounting for internal use software.

 Our consideration of management's assertion on internal control over financial reporting would not
 necessarily disclose all matters in the internal control over financial reporting that might be reportable
 conditions. Under standards issued by the American Institute of Certified Public Accountants, reportable
 conditions are matters coming to our attention relating to significant deficiencies in the design or operation

                                                       40
 of the internal controls that, in our judgment, could adversely affect the agency's ability to record, process,
 summarize, and report financial data consistent with the assertions made by management in the financial
 statements. Material weaknesses are reportable conditions in which the design or operation of one or more
 of the internal control components does not reduce to a relatively low level the risk that misstatements in
 amounts that would be material in relation to the financial statements being audited may occur and not be
 detected within a timely period by employees in the normal course of performing their assigned functions.

 We noted certain matters, discussed in the following paragraphs, involving the internal control and its
 operation that we consider to be reportable conditions. ManagerialCost Accounting and Accountingfor
 Internal Use Software are considered material weaknesses. Both conditions are considered a substantial
 non-compliance with the Federal Financial Management Improvement Act (FFMIA).

 Current Year Comments

A.       Managerial Cost Accounting

Initially reported for fiscal year (FY) 1998 (Report No. OIG/98A-09) and continuing through FY 2001, the
NRC has not implemented Statement of Federal Financial Accounting Standards (SFFAS) No. 4,
ManagerialCost Accounting Concepts andStandardsfor the FederalGovernment, to assure that,
"Managerial cost accounting... be a fundamental part of the financial management system and, to the
extent practicable, ... [to] be integrated with other parts of the system." [Implementation of the standards
would provide], "... the costs of... activities on a regular basis for management information purposes."

Agency management has continued to respond to the FY 1998 condition by revising the remediation plan
and outlining the milestones for an integrated resource management system. The remediation plan has
undergone various revisions to reflect the tasks planned and accomplished. The most recent revision of
the plan was issued May 31, 2001. Management has not made measurable progress in implementing
interim techniques or processes to provide useful, routine and reliable cost information for managers as of
the end of FY 2001. NRC projects implementation of cost management during FY 2002.

The strategy adopted by management places significant emphasis on changing the culture and practices of
the agency. Although managements strategy included plans for interim cost reports at the strategic arena
level, this strategy overlooks the immediate benefits of providing managerial cost accounting information
to agency managers in order to support their responsibilities for planning, controlling costs, decision
making, and evaluating performance. For example, in the current year, the lack of cost accounting data
impacted the agency's ability to transition smoothly to accounting for internal use software. (See
Comment Bfor details of the condition and recommendation)

The Joint Financial Management Improvement Program (JFMIP), ManagerialCost Accounting System
Requirements (FFMSR-8), states, "Some agencies may find they have existing software, such as the core
financial systems software and reporting and data analysis tools, that can support many of their needs for
cost accounting capabilities, especially when cost accounting is first being introduced. Not until an agency
has some experience with cost accounting and has determined that they truly have a need for more
sophisticated capabilities and what those capabilities are, should the agency pursue additional software.
Since agencies may use cost finding techniques and cost studies as long as they comply with cost
accounting standards ... implementation of a cost accounting system is not necessarily a prerequisite with
SFFAS Number 4."

This condition continues to be reported as a material weakness and an FFMIA substantial non-compliance.




                                                     41
Recommendation

1.      The Chief Financial Officer (CFO) should give greater priority to implementing a cost
        management system within the revised milestones. The preparation of routine, useful and reliable
        cost accounting information for agency managers should become a higher priority. Cost
        accounting information should enhance the agency's ability to evaluate the cost of outputs.

CFO's Comments

"Agree. A high priority has been and will continue to be placed on implementing a cost management
system within the revised milestones of the remediation plan, dated May 31, 2001. These milestones are
linked to the implementation of the PeopleSoft payroll, time and labor, and human resources modules.
The PeopleSoft modules were implemented on November 4, 2001. Some of the remediation plan
milestones have been delayed due to the one month deferral of the implementation of the PeopleSoft
modules beyond the time frame projected in May 2001 and by unforeseen increased efforts to resolve
issues associated with the interfaces between the PeopleSoft modules and the cost accounting system.
Cost management reports will be provided to offices for the first quarter of FY 2002 early in calendar year
2002."

Auditors' Position

We are fully cognizant of the initiatives, which have preceded the implementation of cost accounting and
the importance of those initiatives to the agency. However, we continue to urge the CFO to meet the
milestone dates in the revised remediation plan, as doing so will expedite and enhance the implementation
of a cost management strategy for the agency. During the next audit we will evaluate the full
implementation of cost management, and compliance with the remediation plan milestones. The condition
is resolved.

B.      Accounting for Internal Use Software

In 1998, the Federal Accounting Standards Advisory Board issued standards for agencies to account for
the development of internal use software. The Statement became effective October 1, 2000. The guidance
prompted the Chief Financial Officers' community to develop policy, redesign systems, designate
documentation standards and develop an adoption strategy for the new accounting standard. The NRC, in
a very timely and thorough fashion, developed policy guidance for adoption of the standard. However, the
management controls needed to ensure compliance were not satisfactorily implemented. Consequently,
the agency cannot adequately demonstrate adoption of the accounting standard.

 The Financial Accounting Standards Advisory Board Statement of Federal Financial Account Standards
No. 10 (SFFAS No. 10) established the accounting standards for the cost of software developed or
 obtained for internal use. Paragraph 16 requires that, "For internally developed software, capitalized cost
 should include the full cost (direct and indirect cost) incurred during the software development stage."
 For internally developed software, "Such costs include those for new software (e.g., salaries of
 programmers, systems analysts, project managers, and administrative personnel; associated employee
 benefits; outside consultants' fees; rent; and supplies)..." The General Accounting Office's, Standards
for Internal Control in the FederalGovernment, states "Internal control should generally be designed to
 assure that ongoing monitoring occurs in the course of normal operations. It is performed continuously
 and is ingrained in the agency's operations. It includes regular management and supervisory activities,
 comparisons, reconciliations, and other actions people take in performing their duties."

The agency's policy is to track and capture labor costs by strategic arena. To separately account for labor
costs related to internal use software development, the agency established an "unofficial" information

                                                    42
 technology (IT) strategic arena, as they did in prior years to track management and support costs. Within
 the IT arena, job codes were established for each individual software development project. Employees
 working on software development projects were instructed to charge their time to the IT arena by entering
 time in the time and labor module of the payroll system. That system contained an IT detail screen for
 charging time to individual projects.

The new arena was deployed in a software "patch" to the Pay/Pers time and labor module (T&L).
However, OCFO failed to include certain functions, thoroughly test the new routine, and develop reports
to enable management review and oversight of the new cost accumulation process. For example, when an
employee generally charges all time to a single arena, the employee's time defaults to that arena. In this
instance, the system generates a one-page time and attendance (T&A) report that the employee and
certifying official sign. However, when an employee charges time to more than one arena, the system
generates a two-page T&A report so that the employee and certifying official can see the hours charged to
each arena. The T&A report also indicates that the default arena was modified. Thus, the hours shown on
the T&A report and hours charged in the system agreed.

However, the IT "patch" did not generate a second T&A report page when IT was one of two strategic
arenas involved, and the hours shown on the printed T&A reports continued to be charged to the default
arena. Consequently, many of the sampled T&A reports, signed by employees and certifying officials, did
not agree with the hours reflected in the system. In an effort to address this condition, the agency provided
other alternative documentation to support hours charged to the IT arena, such as all T&A reports for
selected employees, functional position descriptions, monthly activity reports for IT projects, personal
calendars, annual employee performance appraisals, and other documents of varying evidentiary value.

Other examples of the condition identified include:

*       Another shortcoming of the "patch" was that a system edit was not provided to require completion
        of the IT detail screen when hours were charged to the IT arena. Thus, hours could be charged to
        the general IT arena without specifying the job code to which the costs should be assigned.

0       Labor reports were not distributed to the Project Managers until March 2001, and, at that time, the
        agency did not require them to certify the accuracy of the hours reported.

*       OCFO personnel did not timely monitor the implementation of the IT labor time tracking process.
        During the third quarter of FY 2001, the OCFO performed a review of employee hours charged to
        IT. OCFO personnel discovered that IT hours were being under reported. Further analysis
        revealed that some employees were not charging hours to the IT arena because they believed that
        the projects they were working on did not meet the requirements of SFFAS No. 10. Other
        employees were not charging the IT arena because of an oversight. In October 200 1, OCFO
        requested the Project Managers to certify the time reported. However, certification at that late
        date was considered untimely and unreliable.

Because the agency did not have an adequate system to (1) track the labor time incurred or (2) monitor
procedures to implement SFFAS 10, the agency is not in compliance with accounting standards.

Recommendation:

2.      The Chief Financial Officer should review the agency practices for transitioning to new software
        applications or routines, which have financial statement impact. The following are essential to the
        deployment of new applications:
                adequacy of testing the process controls,


                                                      43
                developing the control activities necessary to ensure reasonable assurance in the process,
                monitoring the implementation of the application and development of managerial reports
                to assist the review, and
                reconciling the data provided by the new process.

        Implementation of business practices of this nature could assist the OCFO with deployment of
        other applications in the future.

CFO's Comments

"Agree. The OCFO will review the practices for transitioning to new software applications or routines
that have financial statement impact. On November 4, 2001, the agency implemented the PeopleSoft
Human Resources Management System. This new system integrates human resources, payroll, and time
and labor, and is a single-entry system for time, attendance and labor reporting. This new system is
expected to correct all of the system weaknesses identified in the Payroll/Personnel System. The staff is
currently extracting IT labor data from the new Time and Labor module so we can monitor IT labor
reporting. The staff plans to issue first quarter labor data to IT project managers by the end of February
2002 for their review and certification. This completes all remediation actions required by the Federal
Financial Management Improvement Act."

Auditors' Position

The activities described by the CFO should enable the agency to evaluate the appropriateness of new
software applications implemented. Furthermore, the CFO's planned actions described timeliness of data
extracts and related monitoring and analysis may enhance the reliability of financial information provided
by the system and provide an early warning system in the event that issues are identified. We concur that
such actions should be pursued as means to remediate the FFMIA condition identified. This condition is
resolved. Closure is dependent on an evaluation of actions taken and the reliability of data provided by the
new application.

C.      Contract Close-out Processing Procedures

The Division of Contracts and Property Management (DCPM) performs a review of contracts in close-out
and determines the amounts that should remain available for future payments and the amounts that are
available for deobligation. This process is normally followed to determine the continued viability of
recorded undelivered orders. We noted that DCPM notified OCFO's General Accounting Branch (GAB)
of amounts to be expensed without adequate supporting documentation. Subsequently, GAB recognized
the expense without adequate supporting documentation such as contractor invoices, receiving reports or
project manager certifications that the services had been performed.

Statement of Federal Financial Accounting Standards No. 5, which established accounting standards for
federal government liabilities, contains the following definition, "A liability for federal accounting
purposes is a probable future outflow or other sacrifice of resources as a result of past transactions or
events.. ." NRC's Accounting Policy Manual, Chapter II. E., Accounting Procedures, states, "The
documentation of a financial event shall be purposeful and useful to managers in controlling their
operations and to auditors or others involved in analyzing operations. The documentation shall provide a
link between the SGL [standard general ledger] and all supporting records for the financial event."

Information provided by DCPM for transaction processing was not reviewed by GAB personnel to ensure
the underlying completeness, necessity and propriety of the entry. The present practice used by GAB does
not require adequate supporting documentation for the amount proposed as an accrual for contracts in


                                                     44
  close-out. As a result, the amounts presented on the financial statements for liabilities and expenses may
  be overstated. The amount in contracts in close-out at year-end was approximately $705,000.

 Recommendation:

 3.      The Chief Financial Officer should instruct the General Accounting Branch of their inherent
         responsibility to evaluate amounts being recorded as liabilities and expenses. It is essential that
         the review process include an understanding of the source of the information and the underlying
         techniques used to develop amounts referred for inclusion in the agency's financial records. At
                                                                                                             a
         minimum, OCFO should require DCPM to provide documentation to justify valid expenses and
         liabilities.

 CFO's Comments

 "Agree. The General Accounting Branch will ensure that all expenses recorded for contracts in
                                                                                               closeout
 are supported by adequate documentation and will work with DCPM to obtain the necessary
 documentation."

 Auditors' Position:

 We commend the CFO for his commitment to the actions described. The condition is resolved. During
                                                                                                   a
 subsequent audit we will evaluate the adequacy of actions taken.

 Status of Prior Years' Comments

A.       Program Cost Accounting

In FY 1999, we reported (Report No. OIG/99A- 12) that NRC did not have a general ledger process
supporting the preparation of the Statement of Net Cost. The OCFO implemented an interim labor
distribution system in FY 2000 by strategic arena in an effort to collect labor data. A follow-up analysis
                                                                                                           of
the data available for allocation and distribution of labor cost was performed in the current year.
                                                                                                    The
analysis showed that the new system sufficiently improved the information collection process. This
condition is closed.

B.      Documentation of Debt Collection Activities

The License Fee and Accounts Receivable Branch (LFARB) is responsible for collecting NRC receivables
generated in the billing of NRC services to the regulated community. Policies provide for the collection
actions at specified time periods. In FY 2000, we reported that collection files were generally in
                                                                                                   poor
condition and were incomplete. The results of tests indicated that required collection actions were
                                                                                                     either
not performed, or were not documented for a large portion of the billings. In the current year the
                                                                                                   agency
implemented a "Red Folder" process, whereby tracking and documentation of files can be managed
                                                                                                      more
fully. Thus, the condition is closed.

C.      Management Controls over Fee Development

During FY 1999, an audit was conducted by the Office of the Inspector General (OIG) that identified
management control issues relating to the development of fees (Report No. OIG/99A-0 1). The OIG
identified several management control weaknesses, including: (1) lack of formal procedures and
                                                                                                   (2) the
lack of quality control over the fee calculations. The report stated that there were no formally documented
procedures for calculating fees and preparing the fee rule.


                                                    45
In October 1999 (FY 2000), the agency engaged a contractor to conduct an analysis of the fee
development methodology. In a report dated March 27, 2000, the contractor concluded that although
NRC's current hourly rate calculation is not as precise as it could be, it is acceptable under SFFAS No. 4,
ManagerialCost Accounting Concepts and Standardsfor the Federal Government. The report also
provided suggestions that would improve the current process. Quality controls were not addressed
specifically in the report. A subsequent OIG assessment of quality control procedures over fee
development disclosed that improved controls were instituted. This condition is closed.

D.      Financial Statement Preparation

The FY 1998 management letter included an observation on the Financial Statement Preparation Process,
and in FY 1999 this issue was elevated to a reportable condition. During FY 2000, the NRC improved its
financial management compilation practices as evidenced by delivering the compiled statements by the
agreed-upon milestone. In the current year, the agency further refined its compilation process, as
evidenced by timely delivery of the principal statements and notes. More importantly, the agency was
able to meet the delivery milestones. The condition is closed.

E.      Management Controls Over Small Entity Certifications

As reported in prior years, materials licensees can qualify as small entities and pay reduced annual fees
depending on their size (per 10 CFR 171.16). Businesses, nonprofit agencies, educational institutions or
local governments may qualify as small entities depending on either average annual gross receipts, number
of employees or population jurisdiction. Size standards are based on guidelines prescribed by the Small
Business Administration. Licensees qualify for reduced fees by completing and submitting a Certification
of Small Entity Status For The Purposes of Annual Fees Imposed Under 10 CFR Part171 (NRC Form
526) with the applicable fee.

Licensees self-certify as small entities and corroborating evidence is not required. The OCFO performs a
cursory review of NRC Forms 526 received, primarily for completeness. A few certifications are denied
each year based on information available to license fee analysts. During FY 1999, the agency granted
1,180 fee reductions totaling $6.4 million or 83 percent from the originally billed materials fees of $7.7
million. The agency granted fee reductions of approximately $5.2 and $5.8 million for FY 2001 and FY
2000, respectively.

The CFO responded in the prior year that they planned to explore the recommendation provided and that
they would advise us of their results by June 1, 2000. As of the end of our FY 2001 field work, a
corrective action plan had not been provided for review. On December 7, 2001, the agency issued a
memorandum documenting an approach that will be used for FY 2002. Since a plan was not implemented
to address this condition in FY 2001, the condition remains unresolved.

Assurance on Performance Measures

With respect to internal controls related to performance measures, the OIG performed those procedures
and will report on this issue separately. Our procedures were not designed to provide assurance over
reported performance measures, and, accordingly, we do not provide an opinion on such information.




                                                    46
    INDEPENDENTAUDITORS' REPORT ON COMPLIANCE WITH LAWS AND REGULATIONS

    We have audited the principal statements of the U.S. Nuclear Regulatory Commission (NRC)
                                                                                                 as of and for
    the year ended September 30, 2001, and have issued our report thereon dated January 16, 2002.
                                                                                                     We
    conducted our audit in accordance with auditing standards generally accepted in the United States
                                                                                                      of
    America; the standards applicable to financial audits contained in Government Auditing Standards,
                                                                                                       issued
    by the Comptroller General of the United States; and Office of Management and Budget (OMB)
                                                                                                    Bulletin
    No. 01-02, Audit Requirementsfor FederalFinancialStatements.

    The management of the U.S. Nuclear Regulatory Commission is responsible for complying with
                                                                                                      laws and
    regulations applicable to the agency. As part of obtaining reasonable assurance about whether
                                                                                                    the
    agency's financial statements are free of material misstatement, we performed tests of its compliance
                                                                                                           with
    certain provisions of laws and regulations, noncompliance with which could have a direct and material
    effect on the determination of financial statement amounts, and certain other laws and regulations
    specified in OMB Bulletin No. 01-02, including the requirements of the Federal Financial Management
    Improvement Act (FFMIA) of 1996. Our objective was not to issue an opinion on compliance
                                                                                                    with laws
    and regulations and, accordingly, we do not express such an opinion.

    The results of our tests of compliance with the laws and regulations described in the preceding
                                                                                                    paragraph,
    exclusive of FFMIA, disclosed an instance of noncompliance with the following laws and regulations
                                                                                                           that
    are required to be reported under Government Auditing Standardsand OMB Bulletin No. 01-02,
                                                                                                     which is
    described below.

    Current Year Comment

    Compliance with Computer Software Accountability

A review was performed by the OIG (Report No. OIG-02-A-02) of the NRC's management controls
governing the accountability and control of software and software licensing agreements. The review
evaluated the extent of compliance with Executive Order 13103, Computer Software Piracy,which
requires all executive agencies to ensure compliance with applicable copyright laws.

The report identified two conditions evidencing weaknesses in the agency's current practices:

-          NRC Management Directives do not address the full scope of the executive order.
-          The agency's software management controls do not implement the Chief Information Officer
           (CIO) Council's guidelines.

NRC's policies and procedures do not address the full scope of the executive order because the
                                                                                                   NRC
focused its actions on personal use, rather than all uses of software. As a result, the NRC has not
conducted an initial assessment of its software, established a baseline for software inventory, or
determined if all software on agency computers is authorized. The OIG further concluded that
                                                                                                 these
conditions place the agency, its employees and contractors at risk.

Recommendation:

Refer to the QIG reportfor detaileddescription of the conditions and recommendations. Follow-up
                                                                                                and
resolution actions will be tracked by 01G.




                                                       47
Status of Prior Years' Comments

A.     Compliance with the Debt Collection Improvement Act

In the prior year, we reported that the NRC did not comply fully with the referral provisions of the Debt
Collection Improvement Act. Uncollected receivables that are over 180 days delinquent are required to be
transferred to the U.S. Treasury. The results of our tests of accounts receivable identified a 60 percent
exception rate for accounts that were outstanding for more than 180 days. In the current year, the agency
implemented a "Red Folder" process, whereby tracking and documentation of files can be managed more
fully. Thus, the condition is closed.

B.     Part 170 Hourly Rates

As previously reported in fiscal years (FY) 1998 through 2000, the Omnibus Budget Reconciliation Act
(OBRA) of 1990 requires the NRC to recover approximately 100 percent of its budget authority by
assessing fees. Accordingly, NRC assesses two types of fees to its licensees and applicants. One type,
specified in 10 CFR Part 171, consists of annual fees assessed to power reactors, materials and other
licensees. The other type, specified in 10 CFR Part 170 and authorized by the Independent Offices
Appropriation Act (IOAA) of 1952, is assessed for specific licensing actions, inspections and other
services provided to NRC's licensees and applicants.

Each year, the Office of the Chief Financial Officer (OCFO) computes the hourly rates used to charge for
the time incurred by NRC personnel in providing Part 170 services. The rates are based on budgetary data
and are used to price individually identifiable Part 170 services.

The FY 1998 rates were not developed in accordance with applicable laws and regulations because they
were not based on the full cost of providing Part 170 services. For example, the calculations did not
include certain contract support costs of approximately $70 million, net of contract support costs directly
billable to licensees and applicants. The $70 million represented approximately 15 percent of the FY 1998
NRC appropriation of $472.8 million.

The contract support costs were excluded because, based on the OBRA conference agreement, the OCFO
classified these costs as "generic activities" that benefit licensees generally. Thus, NRC recovered these
costs through the Part 171 annual fees.

In response to the condition reported in the prior year, the Office of the Inspector General (OIG)
performed an audit and issued report (Report No. OIG/99A-0 1). Subsequent to the issuance of the FY
1999 financial statement report (Report No. OIG/99A- 12), the agency provided a report intended to
address the issues identified in this observation. The report did not provide for a solution to be
implemented during FY 2001. We do, however, understand that the agency is looking to the future
implementation of cost accounting to assist them in fully addressing this condition. Planned actions to be
taken by the agency have resolved this condition. Closure is dependent on subsequent audit follow-up.

FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT

Under FFMIA, we are required to report whether the agency's financial management systems substantially
comply with the Federal financial management systems requirements, Federal accounting standards, and
the United States Government Standard General Ledger at the transaction level. To meet this requirement,
we performed tests of compliance using the implementation guidance for FFMIA included in Appendix D
of OMB Bulletin No. 0 1-02. The results of our tests provided us the basis to update the status of prior
years' instances of noncompliance.


                                                    48
 FFMIA - Current Year Comment

Accounting for Internal Use Software

Refer to the Report on Management'sAssertion About the Effectiveness of Internal Control, Current Year
Comment B - Accountingfor Internal Use Softwarefor a detailed discussion of the condition and
recommendation. This condition is considered a materialweakness and a FederalFinancial
ManagementImprovement Act substantialnon-compliance.

FFMIA - Status of Prior Year Comments

A.       Managerial Cost Accounting

Refer to the Report on Management'sAssertion About the Effectiveness of Internal Control, Current Year
Comment A - ManagerialCost Accountingfor a detaileddiscussion of the condition and recommendation.
This condition continues to be considered a materialweakness and a FederalFinancialManagement
Improvement Act substantialnon-compliance.

B.       Business Continuity

In prior years, we reported conditions resulting from our assessment of NRC's management control
program relating to the agency's business continuity practices for major financial management systems.
At the end of FY 1999 and FY 2000, the issue identified with the core general ledger - Federal Financial
System (FFS) - operated by Treasury's Financial Management Service (FMS) remained an unresolved
condition and continues to be an FFMIA substantial non-compliance.

In the prior year, we reported that FMS announced that it would no longer support the FFS system used by
the agency. Therefore, NRC is in the process of identifying an alternative provider of such services. We
consider this condition resolved and closure depends on the agency migrating from FMS during FY 2002.

Consistency of Other Information

NRC's overview of program performance goals and results, and other supplemental financial and manage
ment information contain a wide range of data, some of which is not directly related to the principal
statements. We do not express an opinion on this information. We have, however, compared this
information for consistency with the principal statements and discussed the measurement and presentation
methods with NRC management. Based on this limited effort, we found no material inconsistencies with
the principal statements or noncompliance with OMB guidance.

Objectives, Scope and Methodology

NRC management is responsible for (1) preparing the principal statements in conformity with the basis of
accounting described in Note 1 of the Notes to Principal Statements, (2) establishing, maintaining, and
assessing internal controls to provide reasonable assurance that FMFIA's broad control objectives are met,
and (3) complying with applicable laws and regulations, including the requirements referred to in FFMIA.

We are responsible for (1) expressing an opinion on whether the principal statements are free of material
misstatement and presented fairly, in all material respects, in conformity with generally accepted
accounting principles, and (2) obtaining reasonable assurance about whether management's assertion about
the effectiveness of internal control is fairly stated, in all material respects, based upon criteria established
by FMFIA and OMB Circular A- 123, ManagementAccountability and Control. As of the date of our
report, NRC management had completed its evaluation of financial management controls.

                                                       49
We are also responsible for testing compliance with selected provisions of laws and regulations, and for
performing limited procedures with respect to certain other information in the principal statements. In
order to fulfill these responsibilities, we:
-          examined, on a test basis, evidence supporting the amounts and disclosures made in the principal
           statements;

-          assessed the accounting principles used and significant estimates made by management;

-          evaluated the overall presentation of the principal statements;

-          obtained an understanding of internal controls related to safeguarding of assets, compliance with
           laws and regulations including execution of transactions in accordance with budget authority and
           financial reporting in the principal statements;

-          assessed control risk and tested relevant internal controls over safeguarding of assets, compliance,
           and financial reporting, and evaluated management's assertion about the effectiveness of internal
           control;

-          tested compliance with selected provisions of the following laws and regulations: Anti-Deficiency
           Act (Title 31 U.S.C.), National Defense Appropriation Act (PL 101-5 10), Omnibus Budget
           Reconciliation Act of 1990 (PL 101-508), Debt Collection Act of 1982 (PL 97-365), Prompt Pay
           Act (PL 97-177), Civil Service Retirement Act of 1930, Civil Service Reform Act (PL 97-454),
           Federal Managers' Financial Integrity Act (PL 97-255), Chief Financial Officers' Act (PL 101
           576), Budget and Accounting Act of 1950, Federal Financial Management Improvement Act (PL
            104-208); Government Information Security Act (PL 106-398); and

           reviewed compliance and reported in accordance with FFMIA whether the agency's financial
           management systems substantially comply with the Federal financial management system
           requirements, applicable accounting standards and the U.S. Standard General Ledger at the
           transaction level.

We did not evaluate all internal controls relevant to operating objectives as broadly as defined in FMFIA,
such as those controls for preparing statistical reports and those for ensuring efficient and effective
operations. We limited our internal control tests to those controls necessary to achieve the objectives
described in our opinion on management's assertion about the effectiveness of internal controls. We
performed our work in accordance with auditing standards generally accepted in the United States of
America, the standards applicable to financial audits contained in Government Auditing Standards and
OMB Bulletin No. 01-02, Audit Requirementsfor FederalFinancialStatements.


    This report is intended solely for the information and use of the Commissioners and management of the
    U.S. Nuclear Regulatory Commission, OMB, Congress and the NRC Office of the Inspector General and
    is not intended to be and should not be used by anyone other than these specified parties.


                                                      J                                      1
    January 16, 2002




                                                          50
CHIEF FINANCIAL OFFICERS' RESPONSE TO
        THE AUDITORS' REPORT
        REG&U
   S,R&P~
                0
                                             UNITED STATES
                              NUCLEAR REGULATORY COMMISSION
                                       WASHINGTON, D.C. 20555-0001


                                                              January 11,    2002
CHIEF FINANCIAL
    OFFICER




     MEMORANDUM TO:          Stephen D. Dingbaum
                             Assistant Inspector General for Audits

     FROM:                   Jesse L. Funches
                             Chief Financial Offieer

     SUBJECT:                 DRAFT AUDIT REPORT - AUDIT OF THE NUCLEAR REGULATORY
                              COMMISSION'S FISCAL YEAR 2001 FINANCIAL STATEMENTS


     I have reviewed the draft audit report of the Nuclear Regulatory Commission's FY 2001
     Financial Statements, dated January 9, 2002. Our responses to the recommendations are as
     follows.

     Recommendation 1

     The Chief Financial Officer (CFO) should give greater priority to implementing a cost
     management system within the revised milestones. The preparation of routine, useful, and
     reliable cost accounting information for agency managers should become a higher priority.
     Cost accounting information should enhance the agency's ability to evaluate the cost of outputs.

     Response

     Agree. A high priority has been and will continue to be placed on implementing a cost
     management system within the revised milestones of the remediation plan, dated May 31,
     2001. These milestones are linked to the implementation of the PeopleSoft payroll, time and
     labor, and human resources modules. The PeopleSoft modules were implemented on
     November 4, 2001. Some of the remediation plan milestones have been delayed due to the
     one month deferral of the implementation of the PeopleSoft modules beyond the time frame
     projected in May 2001 and by unforeseen increased efforts to resolve issues associated with
     the interfaces between the PeopleSoft modules and the cost accounting system. Cost
     management reports will be provided to offices for the first quarter of FY 2002 early in calendar
     year 2002.

     Recommendation 2

     The CFO should review the agency practices for transitioning to new software applications or
     routines, which have financial statement impact. Essential to the deployment of new
     applications is the adequacy of testing the process controls, developing the control activities


     Contact: Barbara K. Gusack, OCFO/GAB
              415-6054

                                                 52
S. D. Dingbaum-                              -2-



necessary to ensure reasonable assurance in the process, monitoring the implementation of the
application and development of managerial reports to assist the review and reconciliation of the
data provided by the new process. Implementation of business practices of this nature could
assist the OCFO with deployment of other applications in the future.

Response

Agree. The OCFO will review the practices for transitioning to new software applications or
routines that have financial statement impact. On November 4, 2001, the agency implemented
the PeopleSoft Human Resources Management System. This new system integrates human
resources, payroll, and time and labor, and is a single-entry system for time, attendance and labor
reporting. This new system is expected to correct all of the system weaknesses identified in the
Payroll/Personnel System. The staff is currently extracting IT labor data from the new Time and
Labor module so we can monitor IT labor reporting. The staff plans to issue first quarter labor
data to IT project managers by the end of February 2002 for their review and certification. This
completes all remediation actions required by the Federal Financial Management Improvement
Act.

Recommendation 3

The Chief Financial Officer should instruct the General Accounting Branch of their inherent
responsibility to evaluate amounts being recorded as liabilities and expenses. It is essential that
the review process include an understanding of the source of the information and the underlying
techniques used to develop amounts referred for inclusion in the agency's financial records. At a
minimum, OCFO should require DCPM to provide documentation to justify valid expenses and
liabilities.

Response

Agree. The General Accounting Branch will ensure that all expenses recorded for contracts in
closeout are supported by adequate documentation and will work with DCPM to obtain the
necessary documentation.


cc: J. Craig, AO/OEDO




                                                53
